App. 1
IN THE SUPREME COURT
OF THE STATE OF DELAWARE
JEFFREY A. CLOUSER, §
§
Plaintiff Below,
§
Appellant,
§
v.
§
§
KIM DOHERTY, et al.,
§
Defendants Below,
§
§
Appellees.

No. 175, 2019
Court Below–
Superior Court of the
State of Delaware
C.A. No. N15C-07-240

Submitted: August 23, 2019
Decided:
November 14, 2019
Before SEITZ, Chief Justice; VALIHURA, and TRAYNOR, Justices.
ORDER
(Filed Nov. 14, 2019)
After careful consideration of the parties’ briefs
and the record on appeal, it appears to the Court that:
(1) The appellant, Jeffrey A. Clouser, appeals
from a March 25, 2019 Superior Court order granting
summary judgment in favor of the defendants, Wayne
Barton and the Delaware Department of Education
(“the DDOE”). We conclude that the Superior Court did
not err in granting summary judgment. Accordingly,
we affirm.

App. 2
(2) Clouser, a former teacher employed by the
Brandywine School District, filed suit against two
groups of defendants—one comprised of certain school
employees; the Brandywine School District; and current and former members of the Brandywine School
District Board of Education (collectively, “the School
Defendants”) and the other comprised of the DDOE;
Wayne Barton, then Director of Professional Accountability for the DDOE; and Lillian Lowery, then Secretary of Education (collectively, “the State Defendants”).
The gist of Clouser’s complaint alleged that the State
Defendants and the School Defendants acted improperly in investigating his reputed improper use of a
school computer and then disseminated inaccurate information about the investigation. The investigation
led to Clouser’s resignation from his position with the
Brandywine School District. Clouser alleged that the
dissemination of inaccurate information concerning
the investigation left Clouser unable to secure employment in the teaching profession.
(3) The Superior Court dismissed all of Clouser’s
claims against both the School Defendants and the
State Defendants. Clouser appealed. We affirmed the
Superior Court’s dismissal of the complaint against the
School Defendants and Lowery.1 But, we determined
that the Superior Court erred in ruling on the State
Defendants’ claim of sovereign immunity on a motion
to dismiss. Under 18 Del. C. § 6511, “[t]he defense of
1

Clouser v. Doherty, 2017 WL 3947404 (Del. Sept. 7, 2017).
The factual background of the dispute between the parties is set
forth in more detail in this earlier decision.

App. 3
sovereign immunity is waived and cannot and will not
be asserted as to any risk or loss covered by the state
insurance coverage program, whether same be covered
by commercially procured insurance or by self-insurance.” When the State’s insurance coverage program
does not cover the loss, however, the State typically
files, and relies upon, an affidavit of no insurance coverage. Although the State had filed an affidavit of no
insurance coverage in the Superior Court, the court did
not rely on it. Instead, the Superior Court required
Clouser to proffer that the State had expressly waived
sovereign immunity under § 6511. We held that the
Superior Court erred by requiring Clouser to plead insurance coverage under § 6511.
(4) Because Clouser had stated claims for defamation and tortious interference with prospective
business relations against the DDOE and Barton under the lenient standard for sufficiency of a claim applicable to a motion to dismiss, we determined that the
Superior Court’s error was not harmless. Accordingly,
we remanded the case and directed the Superior Court
to permit the remaining parties Clouser, the DDOE,
and Barton to engage in limited discovery related to
(i) the State’s affidavit of no insurance coverage and
(ii) Clouser’s defamation and tortious interference
with prospective business relations claims against the
DDOE and Barton.
(5) On remand, Clouser requested and received
information from the State Insurance Coverage Office

App. 4
regarding the State’s insurance policies.2 Clouser also
filed, and subsequently withdrew, several motions to
compel discovery. After the State Insurance Coverage
Office responded to Clouser’s document request, Clouser
filed a motion to compel “full disclosure of discovery”
from the office. Clouser next asked the court to extend
the discovery deadline. Lastly, Clouser moved to amend
his complaint to (i) add an additional defendant,
(ii) assert new claims against previously dismissed defendants Doherty and Lowery, and (iii) raise seven
additional claims arising out of the same events that
led to Clouser’s initial complaint. On July 6, 2018, the
Superior Court held a hearing on the outstanding motions. At the hearing’s outset, the Superior Court heard
from the parties about the pending discovery matters
and concluded that the only matters that remained
pending were two depositions that had not yet been
scheduled.3 The Superior Court then denied Clouser’s

2

App. to Answering Br. at B154-59; B808-1010.
At the hearing, the Superior Court asked the parties,
“Which gets me to the next question, because there were motions
to compel discovery, then there were motions to withdraw motions to compel. Is there anything that has not been completed at
this point, what is still open on discovery?” In answer to this question, counsel for the State Defendants replied that there were two
depositions that had yet to be taken and additional discovery
would be needed if the Superior Court granted Clouser’s motion
to amend his complaint. The trial judge then asked Clouser if the
State Defendants’ counsel’s representation was accurate. Clouser
stated, “That’s correct, I do agree. That’s fine.” App. to Answering
Br. at B376.
3

App. 5
motion for leave to amend his complaint, stating its
reasons on the record.4
(6) In October 2018, the DDOE and Barton
moved for summary judgment. DDOE and Barton argued: (i) Clouser’s claims were barred by sovereign
immunity, (ii) Clouser’s defamation claim failed as a
matter of law, (iii) Barton was entitled to conditional
privilege for his communications regarding the investigation, and (iv) Clouser’s claim of tortious interference with business relationships failed as a matter of
law. In November 2018, counsel for the State Defendants realized they had inadvertently failed to file an
answer to Clouser’s original complaint and docketed
an answer. Clouser then moved to strike the State Defendants’ answer and moved for default judgment.
(7) On March 25, 2019, the Superior Court issued
two orders. The first order granted the DDOE and Barton’s motion for summary judgment, finding that
Clouser’s claims were barred by sovereign immunity.
In so doing, the Superior Court noted that it was
not required to conduct a new inquiry into the State’s
efforts to meet its responsibilities under 18 Del. C.
§§ 6501-6503 every time the State asserted the defense of sovereign immunity. The second order denied
Clouser’s motion to strike the State Defendants’ answer as well as Clouser’s motion for default judgment.
This appeal followed.
4

App. to Answering Br. at B386-87. The court issued a brief
written order memorializing its decision and setting scheduling
deadlines on July 11, 2018. Id. at B388.

App. 6
(8) On appeal, Clouser argues that (i) the Superior Court committed procedural error by failing to
consider his motion to compel discovery from the State
Insurance Coverage Office and for failing to permit
Clouser to amend his complaint, (ii) Clouser was prejudiced by the State Defendants’ late-filed answer,
(iii) there are material facts in dispute, and (iv) the
Superior Court committed error in its application of
the law to the facts of the case. We conclude Clouser’s
arguments are without merit and, accordingly, affirm
the Superior Court’s judgment.
(9) This Court reviews the grant of a motion for
summary judgment de novo to determine whether the
undisputed facts entitled the movant to judgment as
a matter of law, viewing the facts in the light most favorable to the nonmoving party.5 A party seeking summary judgment bears the initial burden of showing
that no genuine issue of material fact exists.6 If the
movant makes such a showing, the burden then shifts
to the nonmoving party to submit evidence sufficient
to show that a genuine factual issue, material to the
outcome of the case, precludes summary judgment.7
(10) After careful consideration, we conclude the
judgment below should be affirmed on the basis of and
for the reasons assigned by the Superior Court in its
March 25, 2019 order granting summary judgment to
5

United Vanguard Fund, Inc. v. TakeCare, Inc., 693 A.2d
1076, 1079 (Del. 1997).
6
Moore v. Sizemore, 405 A.2d 679, 680-81 (Del. 1979).
7
Id.

App. 7
the DDOE and Barton. In light of Clouser’s numerous
filings below, Clouser’s representation to the court at
its July 6, 2018 hearing, and this Court’s decision in
Doe v. Cates,8 the Superior Court did not err in failing
to rule specifically on Clouser’s motion to compel directed at the State Insurance Coverage Office. Nor did
the Superior Court err in declining to grant Clouser
leave to amend his complaint following remand. A motion for leave to amend is left to the sound discretion
of the trial court.9 The Superior Court did not abuse its
discretion in denying Clouser’s motion to amend where
the proposed amendments were an obvious attempt to
reframe his defamation and tortious interference with
prospective business relations claims. Finally, we agree
with the Superior Court’s conclusion that there is no
evidence that Clouser was prejudiced by the State Defendants’ inadvertent failure to file a timely answer in
this vigorously litigated case.
8

499 A.2d 1175, 1179 n. 4 (Del. 1985) (“Apparently, [precedent] has been interpreted as requiring the trial courts to conduct
a new inquiry into the [Insurance Coverage Determination] Committee’s efforts to meet its responsibilities under 18 Del. C. ch. 65
each time the State asserts the defense of sovereign immunity. In
view of our holding today, such inquiry is no longer necessary.”).
9
Eastern Commercial Realty Corp. v. Fusco, 654 A.2d 833,
837 (Del. 1995). To the extent that Clouser argues that he was
entitled to amendment as a matter of right because he filed his
motion to amend before the State Defendants filed a responsive
pleading, he did not raise that argument to the trial court in the
first instance and we will not entertain it on appeal. Del. Supr.
Ct. R. 8 (“Only questions fairly presented to the trial court may
be presented for review; provided, however, that when the interests of justice so require, the Court may consider and determine
any question not so presented.).

App. 8
NOW, THEREFORE, IT IS ORDERED that the
judgment of the Superior Court is AFFIRMED.
BY THE COURT:
/s/ Collins J. Seitz, Jr.
Chief Justice

App. 9
IN THE SUPERIOR COURT
OF THE STATE OF DELAWARE
JEFFREY A. CLOUSER,
Plaintiff
vs.
KIM DOHERTY, et al.
Defendants

) CA NO.:
)
N 15C-07-240 RBC
)
)
)
)

ORDER GRANTING MOTION
FOR SUMMARY JUDGMENT
(Filed Mar. 25, 2019)
Before the Court is a motion for Summary Judgment filed by Defendants Wayne A. Barton (“Barton”)
and the Delaware Department of Education (“DDOE”)
with regard to the Complaint alleging defamation
and tortious interference with prospective business relations. The 116-page Complaint, as originally filed,
presented multiple claims against a total of 16 Defendants, affiliated in various capacities with the DDOE
and the Brandywine School District (“BSD”).1
This Court previously granted Defendants’ Motion
to Dismiss as to each named Defendant and all claims.
Following an appeal of that decision, the Delaware
Supreme Court in Clouser v. Doherty, 175 A.3d 86,
2017 WL 3947404 (Del. 2017), affirmed the dismissal
of all claims against the BSD defendants, as well as
1

The specific allegations in this case are set out in this
Court’s decision of December 28, 2016 granting the Motion to
Dismiss.

App. 10
certain claims against the State defendants, but reversed and remanded for further proceedings with
regard to the claims for defamation and tortious interference against defendants Barton and DDOE. In the
remand, the Delaware Supreme Court stated:
Clouser may pursue limited discovery related
to the affidavit of no insurance. Clouser, Barton, and the DDOE may pursue limited discovery related to the affidavit of no insurance.
Clouser, Barton and the DDOE may pursue
targeted discovery relating to Clouser’s defamation and tortious interference with prospective business relations for the Barton
Letter and NASDTEC’s website disclosures.
Barton and the DDOE can renew their arguments for dismissal of the remaining claims
on summary judgment if warranted. Clouser
at 31.
Delaware Superior Court Civil Rule 56(c) provides
that defendants are entitled to summary judgment “if
the pleadings, depositions, answers to interrogatories,
and admissions on file, together with the affidavits,
if any, show that there is no genuine issue as to any
material fact and that the moving party is entitled to
a judgment as a matter of law.” “A party seeking summary judgment bears the initial burden of showing
that no genuine issue of material fact exists. If the movant makes such a showing, the burden then shifts to
the non-moving party to submit sufficient evidence to
show that a genuine factual issue, material to the outcome of the case, precludes judgment before trial.”
Khan v. Delaware State Univ., 2016 WL 3575524 at *8

App. 11
(Del. Super. 2016). Reliance on allegations in the Complaint do not serve as an evidentiary basis for purposes
of opposition to summary judgment. Martin v. Nealis
Motors Inc., 247 A. 2d 831, 833 (Del. 1968).
Defendants raise several legal defenses in support
of dismissal. First defendants assert plaintiffs remaining two claims are barred by the doctrine of sovereign
immunity. Sovereign immunity is an absolute bar to
a claim against the state and any agent acting with
in his official duties or official capacity except where
there has been a clear waiver of such immunity by the
General Assembly. Wilmington Housing Authority v.
Williamson, 228 A. 2d 782, 786 (Del. 1967); Raughley v.
Dept. of Health and Social Services, 274 A. 2d 702, 786
(Del. Super. 1971).
A waiver of sovereign immunity will be implied in
cases where the General Assembly has provided for insurance for certain risks of losses through the State
Insurance Coverage Program, 18 Del.C. § 6511. Any
waiver is limited to the amount of the insurance coverage. Turnbull Fink, Del. Super., 668 A. 2d 1175, 1176
(1985). The State, in fact, does have insurance coverage
for certain losses. When the State’s insurance coverage
program does not cover the loss, however, the State
typically files an affidavit of no insurance coverage to
show it has not waived sovereign immunity under
§ 6511, as has occurred here. In reversing the prior
dismissal of Plaintiffs remaining claims, the Delaware
Supreme Court held that the Superior Court must give
notice of its intent to dismiss in a summary judgment

App. 12
motion. Furman v. Del. Dep’t of Transp. 30 A. 3d 771,
774 (Del. 2011).
Once the Director of the State Insurance Coverage
Office has submitted an affidavit of no insurance,
Plaintiff may assert his challenge on that issue. The
State Defendants contend that they have provided
extensive documents relating to the insurance question through discovery. Plaintiff has not taken the
deposition of the Director of the Insurance Coverage
Office, which he could do, as other depositions have
been taken in this case, nor has Plaintiff asserted a
challenge to any of the specific facts stated in the affidavit of no insurance. Contrary to Plaintiff ’s assertion
that summary judgment should be denied because
the information provided in discovery does not sufficiently establish that the Insurance Coverage Office
adequately discharged its statutory responsibility to
seek commercial coverage that might be available to
cover these types of claims, this Court is not required
to conduct a new inquiry into the Insurance Coverage
Committee’s efforts to meet its responsibilities under
18 Del. C. § 6501-6503 each time the State asserts the
defense of sovereign immunity. Doe v Cates, 499 A. 2d
1175, 1179, n.4 (Del. 1985). In the absence of evidence
that the State is expressly waiving the defense of sovereign immunity, such a defense applies to both the
claims against DDOE as well as Barton, to the extent
he acted within the scope of his official capacity.
Clouser was a teacher at Concord High School in
the Brandywine School District for many years until he resigned from his position in 2009 following

App. 13
allegations that he attempted to access inappropriate
materials on his school computer. Barton was the Director of Professional Accountability for DDOE until
2012. Following the allegations against Clouser, the
school principal placed him on immediate leave, followed shortly thereafter by a request from the school
district that he submit his resignation. A forensic examination of Plaintiff ’s computer by the Delaware
State police did not find any evidence of pornography
as the school district’s Lightspeed computer monitoring system prevented access to certain designated
types of websites. On March 5, 2009, the BSD superintendent wrote to Plaintiff and alleged that he had used
the school computer to search for, access, and view
child pornography. Because of the Lightspeed program,
there is no evidence that Plaintiff, in fact, was able to
access any type of pornography on the computer. However, the Lightspeed program log did disclose attempts
to access other sexually suggestive websites to which
Plaintiff admitted that he was looking for mature
women and conceded his use of the school computer for
such purposes was inappropriate.
As part of his responsibility as Director of Professional Accountability at DDOE, on March 11, 2009,
Barton wrote a letter to Clouser advising him of the
DOE investigation of the action taken by the school
board in terminating Clouser’s employment. On August 12, 2009, Barton wrote an internal confidential
memorandum to the Delaware State Secretary of Education about Barton’s meeting with Clouser and the investigation conducted by the school district which. In

App. 14
this memorandum, Barton expressed his opinion that
Clouser’s teaching license should be suspended. On
September 21, 2009, a letter was sent by DDOE to
Clouser that a recommendation was being made that
his teaching license should be revoked. A hearing was
held on November 4, 2010 for the Delaware Professional Standards Board.
With regard to the defamation claim, Barton’s
presentation of materials, which were received from
the school board, presented to the professional standards Board and contained specific quotes from conclusions reached at the BSD level, were not acts of
defamation by Barton and clearly fell within the scope
of his authority. The fact that Barton questioned the
veracity of Clouser’s assertion that he was only looking
for adult women on the Internet was presented within
the scope of Barton’s authority, and merely expressed
an opinion he had the right to render based upon the
materials provided to him regarding the details of the
BSD investigation. As such, these statements are constitutionally protected free speech made by one acting
within the scope of his official capacity. Riley v Moyed
529 A. 2d 248, 251 (1987). Furthermore, Barton’s August 12, 2019 memorandum is entitled to a qualified
privilege as it arose out of an investigation of claimed
improper teacher conduct. Gautschi v Maisel, 565 A2d
1009, 1011(Me. 1989), Ikani v. Bennett, 682 S.W.2d 747,
748-49 (Ark. 1985). Notwithstanding Plaintiff ’s belief
to the contrary, there is no evidence to suggest that
Barton’s actions were performed in anything other
than good faith, without malice, and without any

App. 15
knowledge of false facts or desire to cause harm. see
Meades v Wilmington Hous. Auth, 2005 WL 1131112.
Barton’s speech is entitled to conditional privilege in
this case. *2 (Del. May 12, 2003).
The tortious interference claims against these defendants arise out of information sent by DDOE in
2010 to The National Association of State Directors
for Teacher Education and Certification (“NASDTEC”)
which initially contained concededly incorrect information that Clouser had been terminated for a criminal
conviction. While the suspension of Clouser’s teaching
license was required to be reported, there was an expectation that the information transmitted was factually correct, which was not the case. This incorrect
information, was transmitted to NASDTEC, not by
Barton himself but by someone in Barton’s office whose
identity has not been disclosed in the record. Barton
retired in 2012. In 2014 the error in the NASDTEC
database was corrected. While Clouser asks that the
Court find that the Barton be held vicariously liable for
some malicious intent or improper motive on the part
of the unidentified individual who initially transmitted
the incorrect information to NASDTEC, there is no legal basis to support of this assertion.
Clouser asserts that damaging information placed
on the NASDTEC website damaged his ability to be
hired in an educational position following the restoration of his license. The NASDTEC allows one state to
ascertain whether an applicant for a school position
has had their teaching certificate suspended or terminated in another state. The information contained in

App. 16
the NASDTEC database is available only to a limited
number of administrators in each state, and, school
districts did not have access to any of this disciplinary
information until 2017, two years after the filing of
Plaintiff ’s Complaint, and three years after the incorrect information in the NASDTEC database was removed. In his answer to interrogatory Number 12,
Plaintiff lists 46 individual schools to which he has
applied for a position, without success. Each of the enumerated schools is located in Delaware and none of the
applications listed occurred later than June, 2015. It is
therefore undisputed that placement of the tainted information in the NASDTEC database by someone in
Barton’s office at DDOE in 2009 and subsequently removed in 2014 could not have been relied upon by a
prospective employer in denying Plaintiff ’s employment as disciplinary data contained therein was not
available until 2017. As there is no dispute as to material fact in this regard, summary judgement is appropriate.
For these reasons, the Court finds that the remaining claims against DDOE and Barton in his personal
as well as his scope of authority as an employee of
DDOE are barred by the doctrine of sovereign immunity. The Motion for Summary Judgment is GRANTED.

App. 17
DATED: March 25, 2019
/s/

cc: via EfilinG

Robert Burton Coonin
ROBERT BURTON COONIN,
JUDGE

App. 18
IN THE SUPERIOR COURT
OF THE STATE OF DELAWARE
JEFFREY A. CLOUSER, ) CA NO.:
)
N 15C-07-240 RBC
Plaintiff
)
vs.
)
)
KIM DOHERTY, et al.
)
Defendants
ORDER DENYING STRIKING
ANSWER AND DENYING JUDGMENT
(Filed Mar. 25, 2019)
Before the Court are two Motions by filed Plaintiff.
Jeffrey A. Clouser, one to strike the Answer filed on
behalf of Defendants Wayne A. Barton. and Delaware
Department of Education (“DDOE”) and the second to
grant judgment by default based upon the untimely filing of an Answer by Defendants. This matter arises out
of a Complaint alleging defamation and tortious interference with prospective business relations. The Complaint, as originally filed, presented multiple claims
against a total of 16 Defendants, affiliated in various
capacities with the DDOE and the Brandywine School
District. This Court previously granted Defendants’
Motion to Dismiss as to each named Defendant and all
claims. Following an appeal of that decision, the Delaware Supreme Court in Clouser v. Doherty, 175 A.3d
86, 2017 WL 3947404 (Del. 2017), affirmed the dismissal of all claims against the BSD Defendants as well
as certain claims against the State defendants, and
reversed and remanded for further proceedings with

App. 19
regard to the claims for defamation and tortious interference against defendants Barton and DDOE.
In the remand, the Delaware Supreme Court
stated:
Clouser may pursue limited discovery related
to the affidavit of no insurance. Clouser, Barton, and the DDOE may pursue limited discovery related to the affidavit of no insurance.
Clouser, Barton and the DDOE may pursue
targeted discovery relating to Clouser’s defamation and tortious interference with prospective business relations for the Barton
Letter and NASDTEC’s website disclosures.
Barton and the DDOE can renew their arguments for dismissal of the remaining claims
on summary judgment if warranted.
Discovery was thereafter initiated and completed.
Plaintiff thereupon sought leave to file an Amended
Complaint adding new claims and additional defendants, as well as resurrecting previously dismissed
Defendants. This Court denied that Motion. The two
remaining Defendants, Barton and DDOE then filed
Motions for Summary Judgment. During the pendency
of Defendants’ Motion for Summary Judgment, their
counsel filed an Answer to the Complaint on their behalf. Plaintiff now seeks to strike that Answer as untimely and grant him judgment by default.
The Answer filed by Defendants was no doubt untimely filed. However, in this case, Defendants filed a
Motion to Dismiss, litigated the matter on appeal to
the Delaware Supreme Court and engaged in discovery

App. 20
following remand. Defendants have also filed a Motion
for Summary Judgment. This case has been, and continues to be, vigorously litigated by all parties. Nothing
contained in Defendants’ Answer raises issues which
are not already the subject of their pending Summary
Judgment Motion. Plaintiff has failed to establish how
he is prejudiced by anything contained in Defendants’
Answer. The Motion to Strike the Answer is, therefore,
denied.
DEL. SUPER CT. CIVIL RULE 55(b) allows for
the filing for default judgment when the party against
whom the judgment is sought “has failed to appear,
plead or otherwise defend as provided by these Rules
. . . ” Defendants through counsel have appeared in this
action, they have filed a Motion to Dismiss, defended
an appeal to the Delaware Supreme Court, engaged in
discovery, filed an Answer (albeit only recently), and
filed a Motion for Summary Judgment. The Motion for
Default Judgment is not appropriate at this stage.
For the reasons stated herein, the Motions to
Strike Defendants’ Answer and for Default Judgment
are DENIED.
DATED: March 25, 2019
/s/

cc: via efiling

Robert Burton Coonin
ROBERT BURTON COONIN,
JUDGE

App. 21
IN THE SUPREME COURT
OF THE STATE OF DELAWARE
JEFFREY A. CLOUSER, §
§
Plaintiff Below§
Appellant,
§
v.
§
§
KIM DOHERTY, et al.,
§
Defendants Below§
§
Appellees.

No. 405, 2018
Court Below–
Superior Court of the
State of Delaware
C.A. No. N15C-07-240

Submitted: August 22, 2018
Decided:
September 4, 2018
Before STRINE, Chief Justice; VALIHURA and
VAUGHN, Justices.
ORDER
(Filed Nov. 14, 2019)
Upon consideration of the notice of interlocutory
appeal and amended notice of interlocutory appeal, it
appears to the Court that:
(1) The plaintiff-appellant, Jeffrey Clouser, has
petitioned this Court under Supreme Court Rule 42
to accept an appeal from an interlocutory order of the
Superior Court, dated July 11, 2018, denying his motions to amend his complaint and for sanctions against
defense counsel.

App. 22
(2) Clouser filed an untimely application for certification to take an interlocutory appeal in the Superior Court on August 2, 2018. The Superior Court
denied the certification application as untimely on
August 10, 2018.
(3) Supreme Court Rule 42(c)(i) provides that an
application for certification of an interlocutory appeal
“shall be served and filed within 10 days of the entry
of the order from which the appeal is sought or such
longer time as the trial court, in its discretion, may order for good cause shown.” The Superior Court concluded that Clouser had not shown good cause for his
untimely application for certification. We find no abuse
of the Superior Court’s discretion in so ruling.
NOW, THEREFORE, IT IS HEREBY ORDERED
that the within interlocutory appeal is REFUSED.
BY THE COURT:
/s/ Karen L. Valihura
Justice

App. 23
IN THE SUPREME COURT OF THE
STATE OF DELAWARE
JEFFREY A. CLOUSER,
Plaintiff Below,
Appellant,
v.
KIM DOHERTY, WAYNE A
BARTON, LILLIAN LOWERY,
MARK HOLODICK, PATRICK
BUSH, JAMES SCANLON,
BRANDYWINE SCHOOL
DISTRICT, DELAWARE DEPARTMENT OF EDUCATION,
CURRENT AND FORMER
MEMBERS OF THE BRANDYWINE SCHOOL DISTRICT
BOARD OF EDUCATION:
DEBRA HEFFERNAN,
OLIVIA JOHNSON-HARRIS,
MARK HUXSOLL, PATRICIA
HEARN, CHERYL SISKIN,
RALPH ACKERMAN,
JOSEPH BRUMSKILL, and
DANE BRANDENBERGER,
Defendants Below,
Appellees.

§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§

No. 57, 2017
Court Below—
Superior Court
of the State of
Delaware
C.A. No.
N15C-07-240

Submitted: June 9, 2017
Decided: September 7, 2017
Before VALIHURA, SEITZ, and TRAYNOR, Justices.

App. 24
ORDER
This 7th day of August 2017, upon consideration
of the parties’ briefs and record below,1 it appears to
the Court that:
(1) The appellant, Jeffrey A. Clouser, filed this
appeal from a Superior Court decision granting two
motions to dismiss by separate groups of defendants—
the first filed by Kim Doherty, Mark Holodick, Patrick
Bush, James Scanlon, Brandywine School District,
and current and former members of the Brandywine
School District Board of Education: Debra Heffernan,
Olivia Johnson-Harris, Mark Huxsoll, Patricia Hearn,
Cheryl Siskin, Ralph Ackerman, Joseph Brumskill,
and Dane Brandenberger (collectively, “the School Defendants”), and the second motion to dismiss filed by
Wayne Barton, Lillian Lowery, and the Delaware Department of Education (“DDOE”) (collectively, “the
State Defendants”). We conclude that the Superior
Court erred in dismissing the defamation and tortious
interference claims against two of the State Defendants, but did not err in dismissing the remaining
claims against the State Defendants nor all of the
claims against the School Defendants. Accordingly, we
affirm in part and reverse in part.

1

We do not consider the June 15, 2017 letter Clouser filed
after his reply brief and the submission of this matter for decision.
Supr. Ct. R. 15(a)(vi) (providing that other than the opening brief
and reply brief, the appellant shall not file any other writing with
argument without leave of the Court).

App. 25
(2) According to the allegations of the complaint,
Clouser began teaching in the Brandywine School District in 1991.2 On February 9, 2009, while teaching at
Concord High School, Clouser was placed on administrative leave after a computer monitoring system
report showed his inappropriate use of a school computer. School officials alerted the Delaware State Police
who conducted a forensics investigation of Clouser’s
school computer. According to a police report dated
February 18, 2009 and approved by a supervisor on
March 4, 2009 that summarized the results of their investigation, the police did not find any illegal images
on Clouser’s school computer. This information was
provided to Concord High School’s School Resource
Officer on February 23, 2009. A supplemental police
report dated April 16, 2009 reflected that no illegal
images were found on Doherty’s personal computer.
Doherty, who was the Director of Human Resources for
the Brandywine School District, had used her personal
computer to investigate the searches run on Clouser’s
school computer.
(3) Clouser submitted a letter of resignation to
Doherty on February 20, 2009. Doherty received and
time-stamped the letter.
(4) In a letter dated March 5, 2009 sent to
Clouser, (“the Doherty Letter”) Doherty summarized

2

The facts stated in this Order are drawn from the complaint’s allegations and are assumed to be true only for purposes
of this appeal from a motion to dismiss. Precision Air, Inc. v.
Standard Chlorine of Del., Inc., 654 A.2d 403, 406 (Del. 1995).

App. 26
the events leading to Clouser’s placement on administrative leave.3 Doherty copied Holodick, then principal
of Concord High School, and Ron Mendenhall, then
principal of Hanby Middle School. Clouser alleges that
Doherty, contrary to the police report that she knew or
should have known about by March 5, 2009, falsely
accused him of searching for, accessing, and viewing
child pornography.
(5) Doherty also informed Clouser that if he did
not agree to waive all claims concerning his employment, termination would be recommended at the
Brandywine School District Board of Education’s
March 23, 2009 meeting. Clouser was unwilling to
agree to this condition, because he believed the School
Defendants had wronged him. According to Clouser, in
another March 5, 2009 letter, Scanlon, then Superintendent of the Brandywine School District, stated the
Brandywine School Board of Education accepted his
resignation.
(6) In a letter dated March 11, 2009, Barton, then
Director of Professional Accountability for the DDOE,
informed Clouser that the DDOE had received notice
he was terminated by the Brandywine School District
3

Throughout the complaint, Clouser quotes from and references letters and other materials that were not included with
the complaint. The defendants included copies of the letters and
other materials with their motion to dismiss. Because Clouser liberally relied on these letters and materials in his complaint, it is
appropriate for the court to consider them on a motion to dismiss.
In re Santa Fe Pac. Corp. S’holder Litig., 669 A.2d 59, 69-70 (Del.
1995).

App. 27
for misconduct and immorality. Clouser was also notified that the DDOE had initiated a license disciplinary
investigation under 14 Del. C. § 1218(g). At their
March 23, 2009 meeting, the Brandywine School Board
of Education voted to terminate Clouser because he
did not accept the conditions for his resignation. In a
letter dated April 8, 2009, Clouser’s counsel informed
Doherty that Clouser had resigned on February 20,
2009, and therefore could not be terminated.
(7) While these events were unfolding, it appears
that Doherty suggested to Clouser that he get counseling for his “self-sabotaging behavior.”4 Clouser went
to a treatment center for counseling. Clouser was in
treatment at Caron/Renaissance Center from February 28, 2009 to June 1, 2009. On July 31, 2009, Clouser
met with Barton. Following the meeting, Barton sent
an August 12, 2009 letter (“Barton Letter”) to Lowery,
who was then Secretary of Education. In the letter,
Barton summarized his investigation of Clouser’s termination.
(8) According to Clouser, Barton made many
false statements in the letter: (i) Barton inaccurately
recounted that some students said Clouser must have
been searching for pornography again; (ii) he falsely
stated that the school district never heard the results
of the police investigation; (iii) he falsely stated that
Clouser attempted on more than one occasion to access
pornography on the school’s computer, and his claim
4

App. to State Defendants’ Answering Br. at B42 (Compl.
¶ 144).

App. 28
that he was only looking for adult women was not credible; (iv) the letter from Clouser’s in-patient counselor
was not an endorsement of Clouser’s fitness to teach;
and (v) the letter and Clouser’s demeanor during the
interview left Barton concerned about Clouser being
around children.5 According to Clouser, the evidence
shows he only used school computers on one occasion,
he was only looking for adult women, the school district was aware of the police report and its conclusions,
and the students’ statements and Barton’s opinion on
the Caron/Renaissance Center counselor’s letter and
Clouser’s demeanor were unsupported or untrue.
(9) Lowery sent a letter, dated September 21,
2009 (“Lowery Letter”), to Clouser and copied Barton,
a Deputy Attorney General, and the executive director
of the Delaware Professional Standards Board. According to Clouser, the letter falsely stated he attempted
numerous times to access pornography websites, the
websites were verified as child pornography sites, and
he was unfit to teach. After receiving the Doherty Letter and Lowery Letter, Clouser requested a hearing
before the Delaware Professional Standards Board because “he knew the defamatory accusations against
him were not true and were based on false, exaggerated, and manipulated evidence.”6
(10) The hearing occurred on November 4, 2010.
According to Clouser, Doherty, Barton, and Bush, then
Brandywine School District Director of Technology,
5
6

Id. at B100-01 (Compl. ¶ 332).
Id. at B56-57 (Compl. ¶ 192).

App. 29
lied at the hearing. After the hearing, Clouser consented to a three-year suspension of his teaching license.
(11) On August 26, 2013, in connection with the
Pennsylvania Department of Education’s (“PDOE”)
case against Clouser for reciprocal consequences from
his license suspension in Delaware, Clouser received
his personnel file from the PDOE. The PDOE had subpoenaed the file from the DDOE. Upon receiving the
personnel file, Clouser learned of the Barton Letter for
the first time. He also learned the National Association
of State Directors for Teacher Education and Certification (“NASDTEC”) website incorrectly stated his Delaware teaching license was suspended due to a criminal
conviction. After Clouser submitted Freedom of Information Act7 requests to the DDOE regarding the wording on the NASDTEC website, the website changed the
language to state Clouser’s suspension was based on
sexual misconduct that did not result in a criminal conviction. Clouser alleges this information is still false
because sexual misconduct is the abuse of another person, not the viewing of websites.
(12) Since reinstatement of his teaching license,
Clouser has unsuccessfully applied for multiple teaching and coaching positions. Clouser alleges he was
well-qualified for the positions. Even after interviews
that he alleges went well, Clouser has not obtained
7

Under the Delaware Freedom of Information Act, any person may request access to public records unless the records are
protected from disclosure by an exemption. 29 Del. C. § 10001.

App. 30
permanent employment because he has been forced
to disclose the 2009 events. Clouser has worked as a
substitute teacher in the New Castle County public
school districts since 2012. In October 2012, Doherty
asked Clouser’s staffing agency to remove him from the
Brandywine School District’s substitute teaching list.
(13) On July 30, 2015, Clouser filed a 116-page
complaint alleging defamation, conspiracy, and tortious interference with prospective business relations.
The defamation count was based on false statements
in the Doherty Letter, the Barton Letter, the Lowery
Letter, and the NASDTEC website. According to
Clouser, Doherty, Barton, Lowery, and the DDOE made
these false statements despite the contrary findings of
the police, which they knew or should have known
about. Clouser claimed the other defendants were liable for defamation because they supported the defendants who defamed him.
(14) Clouser further alleged the defendants conspired to terminate him in 2009, defame him at the
November 4, 2010 Professional Standards Board Hearing, and prevent him from finding employment after
reinstatement of his license. Finally, Clouser alleged
the defendants tortiously interfered with his prospective business relationships when: (i) he was terminated in 2009; (ii) Doherty asked Clouser’s staffing
agency not to assign Clouser to substitute teaching assignments in the Brandywine School District; (iii) Barton and the DDOE submitted false information to the
NASDTEC website; and (iv) a principal’s offer of a
teaching position was withdrawn and other schools

App. 31
failed to offer Clouser a teaching position. Clouser contended the statute of limitations did not begin to run
on these claims until August 26, 2013, when he received his personnel file from the PDOE and learned of
the Barton Letter and incorrect information on the
NASDTEC website.
(15) The School Defendants and the State Defendants moved to dismiss the complaint. The School
Defendants argued: (i) the defamation claim was
barred by the statute of limitations and failed to state
a claim; (ii) the conspiracy claim was barred by the
statute of limitations and privilege; and (iii) the tortious interference claim was barred by the statute of
limitations and failed to state a claim.
(16) The State Defendants argued: (i) all of the
claims were barred by sovereign immunity; (ii) the defamation claim was barred by the statute of limitations,
the Barton Letter was protected by privilege, Clouser
failed to state a claim, and Barton’s conduct was protected by the State Tort Claims Act;8 (iii) the conspiracy claim was barred by collateral estoppel and
privilege; and (iv) the tortious interference claim was
barred by the statute of limitations and failed to state
a claim.
(17) In support of their sovereign immunity argument, the State Defendants filed an affidavit of
Debra Lawhead, the Insurance Coverage Administrator of Delaware, stating the State and the DDOE had
8

10 Del. C. § 4001.

App. 32
not purchased any insurance or established any selfinsurance program that would apply to the events described in Clouser’s complaint.9 The Superior Court
judge then-assigned to the case informed the parties
that if the affidavit were considered, the motion to dismiss would have to be converted to a motion for summary judgment.10 At the hearing on the motions to
dismiss before a different judge, Clouser said he was
not suggesting there was insurance when the Superior
Court inquired about the affidavit.11 The State Defendants argued the Superior Court could find sovereign
immunity without the affidavit of no insurance, because Clouser identified no statutory or constitutional
waiver of sovereign immunity by the State.12
(18) In an opinion dated December 28, 2016 and
docketed on January 4, 2017, the Superior Court
granted the motions to dismiss. As to the State Defendants, the Superior Court held Clouser’s claims were
barred by the doctrine of sovereign immunity, the defamation claim was barred by privilege, and Clouser
failed to state a claim for conspiracy or tortious interference. As to the School Defendants, the Superior
Court held Clouser’s claims were barred by the statute
of limitations and Clouser failed to plead a claim. This
appeal followed.

9

App. to State Defendants’ Answering Br. at B159-60.
Clouser v. Doherty, C.A. No. N15C-07-240, Filing ID 58219953
(Letter dated Nov. 25, 2015).
11
App. to State Defendants’ Answering Br. at B154.
12
Id. at B156-57.
10

App. 33
(19) We review a trial court’s grant of a motion to
dismiss de novo.13 In deciding a motion to dismiss under Rule 12(b)(6), the trial court must accept as true
all well-pled allegations of facts and draw reasonable
inferences in the plaintiff ’s favor.14 A court is not, however, required to accept as true conclusory allegations
“without specific supporting factual allegations”15 or
“every strained interpretation of the allegations proposed by the plaintiff.”16
(20) On appeal, Clouser’s arguments are summarized as follows: (i) the Superior Court erred in finding
his claims against the State Defendants were barred
by sovereign immunity; (ii) the Superior Court erred in
finding his defamation claim against the State Defendants was barred by a conditional privilege; (iii) the
Superior Court’s separate treatment of the State Defendants and School Defendants caused the Superior
Court to conclude erroneously that the statute of limitations barred his claims against the School Defendants; (iv) he stated a claim for conspiracy based on
the defendants’ collective conduct, his termination,
and the November 4, 2010 hearing; and (v) he stated a
claim for tortious interference based on the collective
conduct of the defendants and his inability to obtain
full time employment after employers checked his
13

Cent. Mortg. Co. v. Morgan Stanley Mortg. Capital Holdings LLC, 27 A.3d 531, 535 (Del. 2011).
14
Malpiede v. Townson, 780 A.2d 1075, 1082 (Del. 2001).
15
In re Santa Fe Pac. Corp. S’holder Litig., 669 A.2d 59, 6566 (Del. 1995).
16
Malpiede, 780 A.2d at 1083.

App. 34
background. We first address the State Defendants’
assertion of sovereign immunity.
Claims Against the State Defendants
Sovereign Immunity
(21) “Sovereign immunity . . . is an absolute bar
to liability claims against this State unless it is waived
by the General Assembly.”17 The Superior Court held
sovereign immunity barred Clouser’s claims against
the State Defendants because Clouser failed to identify
an express waiver of sovereign immunity by the State.
(22) Clouser first argues the Superior Court erred
because the State Defendants waived sovereign immunity. According to Clouser, the State Defendants violated Clouser’s rights under 42 U.S.C. § 1983, DDOE
rules and regulations regarding the maintenance and
disclosure of employee records,18 the Federal Privacy
Act Regulations,19 the State Employees’, Officers’, and
Officials’ Code of Conduct,20 the Delaware Administrator Standards,21 and the statute protecting public employees reporting suspected violations of law,22 which
prohibits the discharge of a public employee who reports a violation of law to an elected official. Clouser
17
18
19
20
21
22

Turnbull v. Fink, 668 A.2d 1370, 1374 (Del. 1995).
14 Del C. § 122(b)(13), (25).
34 C.F.R. § 5(b).
29 Del. C. §§ 5801-5810a.
14 Del. Admin. Code § 1590.
29 Del. C. § 5115.

App. 35
did not allege violations of these statutes or regulations in his lengthy complaint or response to the States
Defendants’ motion to dismiss. The Superior Court
never passed on any of these arguments because they
were not raised below. His reference to 42 U.S.C. § 1983
in a footnote of his opposition to the State Defendants’
Motion to Dismiss does not validly raise a § 1983 claim,
which he asserts for the first time in his opening
brief.23 Clouser also argues for the first time on appeal
that DDOE’s participation in NASDTEC waives sovereign immunity. Because Clouser did not raise any of
these arguments before the Superior Court, we will not
consider them for the first time on appeal.24
(23) Clouser next argues that the Superior Court
erred by ruling on sovereign immunity for the State
Defendants on a motion to dismiss. According to
Clouser, when the State Defendants raised the sovereign immunity defense on a motion to dismiss and
filed an affidavit of no insurance with their motion,
the State Defendants’ motion should have been converted into a motion for summary judgment. Relying
on Pajewski v. Perry,25 Clouser argues that, before the
23

Sabree Envtl. & Constr., Inc. v. Summit Dredging, LLC,
2016 WL 5930270, at *1 (Del. Oct. 12, 2016) (“[S]tandalone arguments in footnotes are usually not considered fairly raised in any
court.”).
24
Supr. Ct. R. 8.
25
363 A.2d 429, 436 (Del. 1976) (holding State was not entitled to dismissal of a complaint just by showing there was no insurance coverage, but also had to provide all facts regarding how
the insurance coverage committee met its obligations under 18
Del. C. §§ 6501-6543 et seq.).

App. 36
court decided the summary judgment motion, he was
entitled to explore the details of the State’s purchase
of insurance. Although Clouser’s reliance on Pajewski
for broad discovery concerning the State’s insurance
program is misplaced,26 we conclude the Superior
Court erred in dismissing the claims against the State
Defendants on the grounds of sovereign immunity.
(24) In Delaware, the defense of sovereign immunity “was established initially by our first Constitution and has been continued thereafter by successive
Constitutions.”27 Under Article I § 9 of the Delaware
Constitution, the State cannot be sued without its consent.28 Thus, “the only way to limit or waive the State’s
sovereign immunity is by act of the General Assembly.”29
(25) Under 18 Del. C. § 6511, “[t]he defense of
sovereignty is waived and cannot and will not be asserted as to any risk or loss covered by the state insurance coverage program, whether same be covered by
commercially procured insurance or by self-insurance.”
The State has an insurance coverage program in place
26

In Doe v. Cates, this Court held trial courts did not have to
conduct a new inquiry into the insurance coverage committee’s
efforts to meet its responsibilities under 18 Del. C. §§ 6501-6543
each time the State asserted the defense of sovereign immunity.
499 A.2d 1175, 1179 n.4 (Del. 1985).
27
Shellhorn & Hill, Inc., v. State, 187 A.2d 71, 73 (Del. 1962).
28
Sherman v. State, 133 A.3d 971, 975 (Del. 2016); Cates, 499
A.2d at 1176.
29
Cates, 499 A.2d at 1176 (citing Shellhorn & Hill, Inc., 187
A.2d at 74-75).

App. 37
to cover some losses.30 When the State’s insurance
coverage program does not cover the loss, however, the
State typically files an affidavit of no insurance coverage—as it did here—to show it has not waived sovereign immunity under § 6511.31 Before it can consider
the affidavit of no insurance, which is outside of the
complaint, the Superior Court must give notice of its
intent to convert the motion to dismiss into a summary
judgment motion.32 If the plaintiff asserts a sufficient
basis in a Rule 56(f ) affidavit to contest the affidavit of
30

18 Del. C. §§ 6501-6543; App. to State Defendants’ Answering Br. at 159 (Lawhead Aff. ¶ 2).
31
See, e.g., Kesting v. River Rd. Swimming Club, 2014 WL
7149728, at *2 (Del. Super. Ct. Dec. 15, 2014) (holding State was
entitled to summary judgment based on lack of waiver of sovereign immunity under § 6511 due to affidavit demonstrating lack
of insurance coverage); Estate of Williams v. Corr. Med. Servs.,
Inc., 2010 WL 2991589, at *4 (Del. Super. Ct. July 23, 2010)
(“Generally, defendants asserting sovereign immunity often submit affidavits from state officials indicating that the State has not
obtained insurance to cover the litigated loss. While such documentation had not been provided to the Court prior to the hearing
on these motions, it was provided during the hearing to counsel
and there appears to be no dispute that the State has not contracted for insurance to cover these risks. As such, sovereign immunity will prevent this action from proceeding against DOC and
the motion for judgment on the pleadings as to DOC is granted.”)
(internal citations omitted); Tomei v. Sharp, 902 A.2d 757, 770
(Del. Super. Ct. 2006) (dismissing breach of implied covenant
claim based upon affidavit of no insurance coverage); Deputy v.
Roy, 2003 WL 367827, at *3 n.24 (Del. Super. Ct. Feb. 20, 2003)
(declining to address whether warden was entitled to sovereign
immunity because he did not produce an affidavit in compliance
with § 6511).
32
Furman v. Del. Dep’t of Transp., 30 A.3d 771, 774 (Del.
2011).

App. 38
no insurance, she can pursue narrow and limited discovery into the statements in the affidavit of no insurance.33
(26) Here, the State Defendants filed an affidavit
of no insurance. The Superior Court, however, did not
consider the affidavit. Instead, the Superior Court required Clouser on a motion to dismiss to “proffer[ ] an
express waiver of sovereign immunity.”34 Because he
failed to point to an express waiver, such as insurance
coverage for his claims under § 6511, the court upheld
the State Defendants’ assertion of sovereign immunity
and dismissed his claims.
(27) We find that the Superior Court erred by requiring Clouser to plead insurance coverage under
§ 6511 for his claims. When the State asserts on a motion to dismiss that sovereign immunity has not been
waived under § 6511, it must rely on a review of its
insurance program and the coverages available. The
plaintiff cannot reasonably be expected to know what
is and is not covered by the State’s insurance program.
Instead, as is typically done, and as was done here,
when the State claims that its insurance program does
not cover potential claims, it must back up the defense
with an affidavit from the Insurance Administrator
confirming the absence of insurance coverage under
the insurance program for the potential loss. Then, on
notice and after converting the motion to dismiss into
33

Id. at 775.
Clouser v. Doherty, C.A. No. N15C-07-240, op. at 6 (Del.
Super. Ct. Jan. 4, 2017).
34

App. 39
a summary judgment motion, the Superior Court can
consider the affidavit and any challenge the plaintiff
might make to its assertions.35
(28) Given the affidavit the State Defendants
filed with the court, they may be able to demonstrate
that the defense of sovereign immunity can be asserted
due to the lack of insurance covering Clouser’s claims.
The Superior Court must also evaluate whether the individual State Defendants were acting in their official
as opposed to their individual capacity.36 But, at this
stage of the proceedings—namely, a motion to dismiss—it was error to require Clouser to demonstrate
insurance coverage under § 6511 when the State has
the unique knowledge about the coverage of its insurance programs. The Superior Court’s error was not
35

We reiterate that any discovery the Superior Court might
grant under Superior Court Civil Rule 56(f ) relating to insurance
coverage is extremely narrow and limited to the statements made
in the State’s affidavit of no insurance. After limited discovery,
the Superior Court would be acting within its discretion to permit
the State Defendants to file a motion for summary judgment on
the sovereign immunity issue.
36
Sovereign immunity only protects individual state actors
who take actions in their official capacities. See, e.g., Haskins v.
Kay, 2008 WL 5227187, at *2 (Del. Dec. 16, 2008) (reversing Superior Court’s dismissal of claim against defendant in his individual capacity, but affirming Superior Court’s dismissal of claim
against defendant in his official capacity based on lack of insurance coverage and lack of waiver of sovereign immunity); Walls v.
Dep’t of Corr., 1989 WL 25927, at *1 (Del. Super. Ct. Mar. 2, 1989)
(finding sovereign immunity was not waived based on no insurance affidavit and dismissing claims against the Warden and the
Commissioner in their official capacities), aff ’d, 567 A.2d 424
(Del. 1989).

App. 40
harmless because, as discussed below, we conclude
Clouser stated claims for defamation and tortious interference with prospective business relations against
Barton and the DDOE.
Defamation
(29) We next turn to Clouser’s defamation claim
against the State Defendants. The elements of a defamation claim are: (i) a defamatory communication; (ii)
publication; (iii) the communication refers to the plaintiff; (iv) a third party’s understanding of the communication’s defamatory character; and (v) injury.37 The
Superior Court ruled that Clouser’s lengthy complaint
pleads the necessary elements of a defamation claim
relating to the Barton Letter and the NASDTEC website information.38 But, the court accepted the State
Defendants’ defense of privilege.39
(30) The Superior Court held it could not conclude, on a motion to dismiss, that the defamation
claims based on the Barton Letter and NASDTEC website were time-barred. The Superior Court found that,
based on the complaint’s allegations, Clouser could not
be held to have known about the Barton Letter, that
the Barton Letter was sent to PDOE, or that there was
false information on the NASDTEC website before he
37

Bloss v. Kershner, 2000 WL 303342, at *6 (Del. Super. Ct.
Mar. 9, 2000), aff ’d, 2001 WL 1692160 (Del. Dec. 21, 2001).
38
Clouser, C.A. No. N15C-07-240, op. at 8-9.
39
10 Del. C. § 8119; DeMoss v. News Journal Co., 408 A.2d
944, 945 (Del. 1979).

App. 41
received this information from the PDOE on August
26, 2013.
(31) Clouser filed his complaint on July 30, 2015.
Under the discovery rule, the statute of limitations
does not begin to run until “the discovery of facts ‘constituting the basis of the cause of action or the existence of facts sufficient to put a person of ordinary
intelligence and prudence on inquiry which, if pursued,
would lead to the discovery’ of such facts.”40 Clouser
alleged he was unaware of the Barton Letter and
NASDTEC website information until August 26, 2013.
At this stage of the proceedings, Clouser’s allegations
about the time of discovery support his claim that the
statute should be tolled, and thus the Superior Court
did not err in concluding Clouser’s defamation claim
based on the Barton Letter and NASDTEC website
were not time barred. We also note that the Superior
Court did not err in dismissing this claim as to Lowery
because, other than receiving the Barton Letter,
Clouser did not allege that she had any involvement
in that letter or the incorrect information on the
NASDTEC website.
(32) The Superior Court did not expressly address Clouser’s defamation claim based on the Lowery
Letter, but that claim was barred by the two-year statute of limitations. Clouser alleges that he requested
the November 4, 2010 hearing because “he knew the
40

Coleman v. PricewaterhouseCoopers, LLC, 854 A.2d 838,
842-43 (Del. 2004) (quoting Becker v. Hamada, Inc., 455 A.2d 353,
356 (Del. 1982)).

App. 42
defamatory accusations against him [in the Doherty
Letter and the Lowery Letter] were not true and were
based on false, exaggerated, and manipulated evidence.”41 He was thus on notice of any defamation
claim based on the Lowery Letter long before his receipt of the NASDTEC website information and the
Barton Letter on August 26, 2013.
(33) The Superior Court further held the defamation claim as to the Barton Letter was subject to
dismissal because it was conditionally privileged as
part of an investigation under 14 Del. C. § 1218 and
also part of a mandatory disclosure to the PDOE.
Clouser appears to argue this was error because the
State Defendants knowingly provided false information in violation of various statutes. A conditional
privilege does exist to protect individuals from defamation claims when involved in official investigations.42
But, “[a] conditional privilege must be exercised ‘with
good faith, without malice and absent any knowledge
of falsity or desire to cause harm.’ ”43 “Whether a conditional privilege has been abused is ordinarily a question of fact.”44 This Court has held that conditional

41

App. to State Defendants’ Answering Br. at B56-57
(Compl. ¶ 192).
42
Meades v. Wilmington Hous. Auth., 2005 WL 1131112, at
*2 (Del. May 12, 2005).
43
Id. (quoting Burr v. Atl. Aviation Corp., 348 A.2d 179, 181
(Del. 1975)).
44
Id.

App. 43
privilege is an affirmative defense that ordinarily
should not be considered on a motion to dismiss.45
(34) Clouser alleges that Barton prepared the
Barton Letter with malice and reckless disregard for
the truth. To support this conclusion, Clouser alleges
that Barton was aware or should have been aware of:
(i) the findings in the 2009 police report that illegal
images were not present; (ii) the actual information in
the school computer logs showing only a limited number of adult internet searches; (iii) the unreliability of
the anonymous student statements about his propensity to look at pornographic material; (iv) the falsity
of statements about the school district’s lack of
knowledge of the results of the police investigation;
and (v) the lack of any basis to express concern about
Clouser being around children.46 Further, Clouser alleges that the DDOE and Barton intentionally sent
false information to NASDTEC that was published on
the NASDTEC website.47 While we are skeptical of the
reliability of these allegations, we must accept them as
true when reviewing a motion to dismiss. Clouser has
raised disputed issues of fact about the good faith exercise of the privilege. Thus, we conclude the Superior
Court erred in dismissing the defamation claim on the
grounds of conditional privilege.48
45

Id.; Klein v. Sunbeam, 94 A.2d 385, 392 (Del. 1952).
App. to State Defendants’ Answering Br. at B39-44
(Compl. ¶¶ 134-49).
47
Id. at B11, B30-31, B111 (Compl. ¶¶ 31, 107-08, 407).
48
It may be that, after the record is developed, Clouser is
unable to support the facts in the complaint underlying his claim
46

App. 44
(35) For similar reasons, at the motion to dismiss
stage, the same conduct would not be protected by the
State Tort Claims Act.49 Under the State Tort Claims
Act, a state employee has qualified immunity from liability when: (i) the alleged act or failure to act arose
out of and in connection with the performance of official duties involving the exercise of discretion; (ii) the
act or failure to act was done (or not done) in good faith;
and (iii) the act or failure to act was done without gross
negligence.50 Under the statute, the burden rests with
the plaintiff to prove the absence of any of the three
elements.51
(36) As noted above, Clouser alleges that Barton
prepared the Barton Letter with malice and reckless
disregard for the truth, and intentionally sent false information to the PDOE. Although these allegations are
tenuous, we, like the Superior Court, cannot dispute
their accuracy right now. Under the plaintiff-friendly
standards applied on a motion to dismiss,52 they are
sufficient to raise reasonably conceivable claims of a
lack of good faith and possible gross negligence to survive a motion to dismiss. After further development of
the record, these allegations may prove unsupported,
and Barton might be entitled on summary judgment to
qualified immunity. But, the Superior Court erred in
of bad faith by the State Defendants. If so, the conditional privilege could be decided on summary judgment.
49
10 Del. C. § 4001.
50
Id.
51
Id.
52
Malpiede, 780 A.2d at 1082.

App. 45
dismissing these claims at this stage of the proceedings.
Conspiracy
(37) We next address Clouser’s conspiracy claim.
The elements of a civil conspiracy claim are: (i) a confederation or combination of two or more persons;
(ii) an unlawful act done in furtherance of the conspiracy; and (iii) actual damage.53 In the absence of an
actionable wrong, a civil conspiracy claim will fail.54
The Superior Court dismissed Clouser’s conspiracy
claim because he failed to allege specific facts showing
a conspiracy, and his defamation claim was barred by
sovereign immunity and privilege. On appeal, Clouser
argues he stated a claim for conspiracy based on the
collective grouping of the defendants, the defendants’
wrongful actions against him in the process leading to
his termination, the defendants’ wrongful conduct at
the November 4, 2010 hearing, and his defamation
claim.55
(38) Although we find Clouser stated a defamation
claim against the DDOE and Barton, his conspiracy
53

Nicolet, Inc. v. Nutt, 525 A.2d 146, 149-50 (Del. 1987).
Connolly v. Labowitz, 519 A.2d 138, 143 (Del. 1986).
55
In his complaint, Clouser also alleged the defendants engaged in a conspiracy to tortiously interfere with his employment
opportunities. Clouser does not make this argument in his opening brief and has therefore waived this claim. Supr. Ct. R.
14(b)(vi)(A)(3) (“The merits of any argument that is not raised in
the body of the opening brief shall be deemed waived and will not
be considered by the Court on appeal.”).
54

App. 46
claims are primarily based on his termination in 2009
and the November 4, 2010 hearing. Those claims are
time-barred regardless of whether a two-year or threeyear statute of limitations applies.56 Clouser’s complaint shows he was on notice of the defendants’
wrongdoing relating to his termination in 2009 and
wrongdoing relating to his license suspension in 2010.
(39) As to his termination, Clouser alleged that
his counsel challenged his termination in April 2009
on the grounds that Clouser could not be terminated
because he had already resigned.57 Clouser also alleged
that he would not waive claims relating to his employment as demanded by the School Defendants because
he believed they had engaged in wrongdoing.58 As
to the November 4, 2010 hearing, Clouser alleged that
he requested the hearing because “he knew the defamatory accusations against him [in the Doherty Letter
56

Compare 10 Del. C. § 8106(a) (providing “no action to recover damages caused by an injury unaccompanied with force or
resulting indirectly from the act of the defendant shall be brought
after the expiration of 3 years from the accruing of the cause of
such action”) and Atlantis Plastics Corp. v. Sammons, 558 A.2d
1062, 1064 (Del. Ch. 1989) (applying analogous statute of limitations period under 10 Del. C. § 8106 to conspiracy claim) with 10
Del. C. § 8119 (“No action for the recovery of damages upon a
claim for alleged personal injuries shall be brought after the expiration of 2 years from the date upon which it is claimed that
such alleged injuries were sustained. . . .”) and Jensen v. Wharton,
1994 WL 649303, at *1 (Del. Super. Ct. 1994) (applying § 8119 to
conspiracy claim).
57
App. to State Defendants’ Answering Br. at B84 (Compl.
¶ 282).
58
Id. at B80 (Compl. ¶ 270).

App. 47
and Lowery Letter] were not true and were based
on false, exaggerated, and manipulated evidence.”59
Clouser’s receipt of the Barton Letter and false information on NASDTEC website does not revive conspiracy claims he knew about in 2009 and 2010. Clouser’s
remaining allegations of conspiracy are conclusory and
fail to state a claim. Thus, the Superior Court did not
err in dismissing the conspiracy claim against the
State Defendants.
Tortious Interference
Business Relations

with

Prospective

(40) We now turn to Clouser’s tortious interference with prospective business relations claim against
the State Defendants. The elements of a claim for tortious interference with prospective business relations
are: (i) the reasonable probability of a business opportunity; (ii) intentional interference by a defendant
with that opportunity; (iii) proximate causation; and
(iv) damages.60 Tortious interference with prospective
business relations is subject to a three-year statute of
limitations.61 The Superior Court held Clouser failed to
state a claim for tortious interference against the State
Defendants because: (i) he failed to allege specifically
the reasonable probability of a business opportunity

59

Id. at B56-57 (Compl. ¶ 192).
DeBonaventura v. Nationwide Mut. Ins. Co., 428 A.2d
1151, 1153 (Del. 1981).
61
10 Del. C. § 8106; SmithKline Beecham Pharm. Co. v.
Merck & Co., Inc., 766 A.2d 442, 450 (Del. 2000).
60

App. 48
that ended because of the actions of the State Defendants; (ii) failed to allege specifically their knowledge
of this career prospects; and (iii) failed to allege how
they intentionally interfered with his career prospects.
(41) On appeal, Clouser argues the Superior
Court erred in dismissing his tortious interference
claim because the defendants should have been viewed
as one entity instead of split into groups. Clouser does
not cite any relevant authority in support of this proposition and fails to explain why the actions of one defendant should be attributed to all sixteen defendants.
He also argues that he included factual information
about job prospects he lost after potential employers
checked his background.
(42) Viewing the facts in the light most favorable
to Clouser, the complaint states a claim for tortious interference with prospective business relations against
the DDOE and Barton based on the information on the
NASDTEC website that Clouser learned of in August
2013. In the complaint, which we must accept as true
at this stage of the proceedings, Clouser alleged that
DDOE and Barton provided false information (that
Clouser engaged in sexual misconduct and had a
criminal conviction) to the NASDTEC website, which
prospective employers, including school district authorities, use to guide hiring decisions. According to
Clouser, after his suspension ended, he was denied fulltime employment opportunities—one of which was denied after an offer from a school principal—as a result

App. 49
of the NASDTEC website information.62 Thus, Clouser
sufficiently stated a claim for interference with prospective business relations. The Superior Court did not
err, however, in finding that Clouser failed to state a
claim for tortious interference against Lowery. Clouser
did not allege any wrongful interference by Lowery
within the statutory time period for this claim.
School Defendants
Defamation and Conspiracy
(43) We now turn to Clouser’s claims against the
School Defendants. The Superior Court concluded that
Clouser’s defamation claim against the School Defendants, which was based on the Doherty Letter, was
barred by the two-year statute of limitations because
Clouser and others received the letter in March 2009.
Clouser did not file his complaint until July 30, 2015.
Clouser acknowledges that he was well-aware of the
School Defendants’ alleged defamation more than five
years before he filed his complaint. In his complaint,
he alleges that he requested the November 4, 2010
hearing because “he knew the defamatory accusations
against him [in the Doherty Letter and Lowery Letter]
were not true and were based on false, exaggerated,
and manipulated evidence.”63 He was thus on notice of
the School Defendants’ alleged defamation well before

62

App. to State Defendants’ Answering Br. at B11, B15, B17,
B88-90, B111 (Compl. ¶¶ 31, 51, 59, 294-300, 407).
63
Id. at B56-57 (Compl. ¶ 192).

App. 50
the two-year statute of limitations expired in March
2011.
(44) On appeal, Clouser argues that all of the defendants should be considered as one group and the
statute of limitations should be tolled for all of the defendants due to continuing wrongs by individual defendants within the group. None of the cases cited by
Clouser support his argument. In Havens Realty Corp.
v. Coleman,64 the United States Supreme Court held
“that where a plaintiff, pursuant to the Fair Housing
Act, challenges not just one incident of conduct violative of the Act, but an unlawful practice that continues
into the limitations period, the complaint is timely
when it is filed within 180 days of the last asserted occurrence of that practice.” In Henlopen Landing Homeowners Ass’n v. Vester,65 the Court of Chancery held the
maintenance of an allegedly retaliatory lawsuit under
the Fair Housing Act did not constitute a continuing
violation under Havens. In Ewing v. Beck,66 this Court
recognized that under the doctrine of continuing negligent medical treatment (“a continuum of negligent
medical care related to a single condition occasioned by
negligence”), the statute of limitations runs from the
last date of the interrelated negligent medical treatment. In Desimone v. Barrows,67 the Court of Chancery

64

455 U.S. 363, 380-81 (1982) (citations omitted).
2015 WL 5316864, at *3 (Del. Ch. Sept. 14, 2015).
66
520 A.2d 653, 662 (Del. 1987) (emphasis omitted).
67
924 A.2d 908, 926 (Del. Ch. 2007) (rejecting application of
continuing wrong doctrine to allow plaintiff to challenge wrongs
65

App. 51
declined to apply the continuing wrongs doctrine to
allow the plaintiff to challenge wrongs predating his
stock ownership, finding that each of the alleged
wrongs could be easily segmented.
(45) Nor do any of these cases support application of the continuing wrong doctrine. The alleged
wrongs here are dissimilar to discriminatory housing
practices under the Fair Housing Act or a continuing
course of medical treatment. The alleged wrongs in
this case are also easily segmented—false statements
by different defendants, in different documents. Even
if Clouser was not aware of the Barton Letter and incorrect information on the NASDTEC site until August
2013, he does not identify defamatory statements by
any of the School Defendants after 2010. Thus, the
Superior Court did not err in finding the statute of
limitations barred Clouser’s defamation claim against
the School Defendants. Clouser’s conspiracy claim
against the School Defendants fails for the same reasons as the conspiracy claims against the State Defendants.68
Tortious Interference
Business Relations

with

Prospective

(46) Finally, we address Clouser’s tortious interference with prospective business relations claim against
the School Defendants. The Superior Court found that
predating his stock ownership and stating that each of the alleged
wrongs could be easily segmented).
68
See supra ¶¶ 38-39.

App. 52
to the extent this claim was based on Clouser’s wrongful termination in 2009, it was barred by the threeyear statute of limitations. To the extent this claim was
based on Doherty’s request that Clouser’s staffing
agency remove him from the substitute teacher list
for the Brandywine School District, the Superior Court
held that Delaware does not recognize a claim for tortious interference with an at-will employment relationship,69 and Clouser failed to plead a claim for
tortious interference with a third party prospective
employer. As to Clouser’s allegations that his failure to
find full time employment was a result of the School
Defendants’ tortious interference, the Superior Court
held Clouser failed to allege specifically the reasonable
probability of a business opportunity that ended because of the actions of the School Defendants, failed
to allege specifically their knowledge of his career prospects, and failed to allege how they intentionally interfered with his career prospects.
(47) On appeal, Clouser argues the Superior
Court erred in dismissing his tortious interference
claim because the defendants should have been viewed
as one entity instead of split into groups. We have already rejected this argument. Thus, Clouser’s claims

69

Triton Constr. Co. v. E. Shore Elec. Servs., Inc., 2009 WL
1387115, at *17 (Del. Ch. May 18, 2009), aff ’d, 988 A.2d 938 (Del.
2010). But see ASDI, Inc. v. Beard Research, Inc., 11 A.3d 749,
751-52 (Del. 2010) (recognizing courts have found tortious conduct inducing the termination of an at-will employment contract
actionable).

App. 53
relating to the November 4, 2010 hearing are barred
by the statute of limitations.
(48) Clouser also argues that he included factual
information about job prospects he lost after potential
employers checked his background. With the exception
of his allegation concerning Doherty’s contact with his
staffing agency, however, Clouser fails to allege how
the School Defendants interfered with his employment
prospects since the November 4, 2010 hearing. As to
his allegation regarding Doherty’s contact with the
staffing agency, we conclude that the Superior Court
did not err in finding Clouser failed to allege interference with Clouser’s prospective relationship with a
third party prospective employer. Clouser alleged that
Doherty asked his staffing agency not to place him
with his previous employer, the Brandywine School
District. He did not allege that Doherty’s request interfered with his ability to work in another school district
or caused his staffing agency to stop placing him in
other school districts. Thus, his tortious interference
claim was properly dismissed.
NOW, THEREFORE, IT IS ORDERED that the
judgment of the Superior Court dismissing Clouser’s
conspiracy claim against the State Defendants, the
defamation and tortious interference claims against
Lowery, and all of the claims against the School Defendants is AFFIRMED; the judgment of the Superior
Court dismissing Clouser’s defamation and tortious
interference claims against Barton and DDOE is REVERSED, and the matter is REMANDED for further
proceedings consistent with this order. Clouser may

App. 54
pursue limited discovery related to the affidavit of no
insurance. Clouser, Barton, and the DDOE may pursue
targeted discovery related to Clouser’s defamation
and tortious interference with prospective business
relations for the Barton Letter and NASDTEC website disclosures. Barton and the DDOE can renew
their arguments for dismissal of the remaining claims
on summary judgment if warranted. Jurisdiction is
not retained.
BY THE COURT:
/s/ Collins J. Seitz, Jr.
Justice

App. 55
THE SUPERIOR COURT OF THE
STATE OF DELAWARE
JEFFREY A. CLOUSER,

)
)
Plaintiff,
) C.A. No.
v.
) N15C-07-240-RBC
)
KIM DOHERTY, WAYNE
)
A. BARTON, LILLIAN
)
LOWERY, MARK
)
HOLODICK, PATRICK
BUSH, JAMES SCANLON, )
)
BRANDYWINE SCHOOL
)
DISTRICT, DELAWARE
)
DEPARTMENT OF ED.,
)
CURRENT AND FORMER
)
MEMBERS OF THE
)
BRANDYWINE SCHOOL
DISTRICT BOARD OF ED., )
)
DEBRA HEFFERNAN,
OLIVIA JOHNSON-HARRIS, )
MARK HUXSOLL, PATRICIA )
HEARN, CHERYL SISKIN, )
)
RALPH ACKERMAN,
)
JOSEPH BRUMSKILL,
DANE BRANDENBERGER, )
)
Defendants.
)
DECISION ON DEFENDANTS’
MOTION TO DISMISS
(Filed Jan. 4, 2017)
Before the Court are two (2) separate Motions to
Dismiss, on behalf of the Brandywine School District

App. 56
Defendants (Kim Doherty, Mark Holodick, Patrick
Bush, James Scanlon, Brandywine School District, current and former members of the Brandywine School
District Board of Education, Debra Heffernan, Olivia
Johnson-Harris, Mark Huxsoll, Patricia Hearn, Cheryl
Siskin, Ralph Ackerman, Joseph Brumskill, and Dane
Brandenberger, hereinafter “School Defendants”) and
the other on behalf of the Delaware Department of
Education Defendants (Wayne Barton, Lillian Lowery,
and the Delaware Department of Education, hereinafter “State Defendants”). The Motions to Dismiss seek
to dismiss the Plaintiff ’s Complaint as to all Counts.
For the following reasons, the Court finds that Defendants’ Motions to Dismiss as to each Defendant and all
claims are appropriate and the Motions to Dismiss are
hereby GRANTED.
I.

FACTS AND PROCEDURES

Plaintiff, who is self-represented, filed a 427 paragraph complaint on July 30, 2015, claiming defamation,
conspiracy, and tortious interference with potential
business relations against the Delaware Department
of Education, the Brandywine School District, and individual defendants employed by or affiliated with
both for the incidents surrounding his termination of
employment with the Brandywine School District in
2009 and the events alleged to have flowed from that
termination.

App. 57
Plaintiff was a teacher in the Brandywine School
District from 1991-2009.1 On February 9, 2009, the
Plaintiff was investigated by the Delaware State Police
following an allegation he used a school computer for
inappropriate sexual misconduct and was placed on
immediate leave by the school district.2 A forensic
examination of the Plaintiff ’s computer by the State
Police did not locate any evidence of sexual misconduct.3 Subsequently, Plaintiff attempted to resign and
was terminated.4 After Plaintiff ’s attempt to resign
and subsequent termination, the School District’s
then Superintendant wrote the Delaware Department
of Education and requested action be pursued against
Plaintiff ’s teaching license, as required by 14 Del. C.
§ 1218(g).5
On March 5, 2009, Kim Doherty, Director of Human
Resources of the Brandywine School District, wrote
to the Plaintiff alleging that Plaintiff had used the
computer to access child pornography.6 On July 31,
2009, Plaintiff met with Dr. Wayne Barton, then Director of Professional Accountability for the Delaware
Department of Education, to present his version of the
events surrounding Plaintiff ’s termination.7 After this
1

Compl. ¶ 29.
Compl., Ex. A.
3
Id.
4
Id.
5
Delaware Department of Education Mot. to Dismiss, Ex. 3.
[hereinafter State Defendants’ Mot. to Dismiss].
6
School Defendants’ Mot. to Dismiss, Ex. A.
7
Compl. ¶ 121.
2

App. 58
meeting, Dr. Barton wrote an internal memorandum
to Dr. Lillian Lowery, then Secretary of the Delaware
Department of Education, stating that, in Dr. Barton’s
opinion, the Plaintiff ’s teaching license should be revoked.8
Plaintiff attended a licensure revocation/suspension hearing on November 4, 2010 before the Delaware
Professional Standards Board.9 As a consequence of
the licensure action, Plaintiff accepted an agreement
resulting in a three year suspension of his license to
teach in Delaware.10
According to Plaintiff, on August 26, 2013, he received documents of the National Association of State
Directors of Teacher Education and Certification
(NASDTEC) Clearinghouse containing information
which erroneously stated that Plaintiff ’s teaching license had been suspended due to a criminal conviction
for sexual misconduct.11 The information received by
Plaintiff had been sent by the Pennsylvania Department of Education after Plaintiff applied for a teaching
job in Pennsylvania.12 Among the documents received
by Plaintiff from the Pennsylvania Department of Education was a copy of an internal DDOE memorandum
sent from Dr. Barton to Dr. Lowery on August 12, 2009
regarding Dr. Barton’s investigation of Plaintiff ’s
8

State Defendants’ Mot. to Dismiss, Ex. 2.
Comp. ¶ 193.
10
State Defendants’ Mot. to Dismiss, Ex. 4.
11
Compl. ¶¶ 96-97; 178-81; Compl., Ex. C.
12
Compl. ¶ 96.
9

App. 59
licensure as required by 14 Del C. §1218.13 According
to Plaintiff, prior to his receiving the mailing from the
Pennsylvania DOE in August of 2013, he had been unaware of both the publication on the Clearinghouse
website and the memorandum from Dr. Barton to Dr.
Lowery.14
Plaintiff alleges defamation, contained both within
the NASDTEC Clearinghouse information and within
the letter sent by Dr. Barton to Dr. Lowery. Plaintiff
further asserts that a conspiracy exists against him,
through a “whisper campaign” by the Defendants,
which has precluded the Plaintiff from obtaining appropriate employment.15 Finally, the Plaintiff claims
tortious interference with business relations, alleging
that Ms. Doherty called the substitute teaching service
where Plaintiff was employed, Kelly Educational Staffing, asking that he not thereafter be assigned to teach
at the Brandywine School District.16
Both the Brandywine School District and its
named employees and board members and the Delaware Department of Education and its named employees have moved to dismiss the Plaintiff ’s case on all
counts.

13
14
15
16

Compl. ¶¶ 96-97.
Compl. ¶ 99.
Compl. ¶ 293.
Compl. ¶¶ 301-03.

App. 60
II.

STANDARD OF REVIEW

Pursuant to Delaware Superior Court Civil Rule
12(b)(6), the Court may dismiss a plaintiff ’s claim for
“failure to state a claim upon which relief can be
granted.”17 When analyzing a motion to dismiss under
Rule 12(b)(6), the Court must accept all well-pled, nonconclusory allegations as true.18 Every reasonable factual inference will be drawn in favor of the non-moving
party.19 If the complaint and facts alleged are sufficient
to support a claim on which relief may be granted, the
motion is not proper and should be denied.20
III. DISCUSSION
The Motions to Dismiss seek to dismiss the Plaintiff ’s Complaint as to all Counts. The Court will consider the Motions to Dismiss as they relate to each
Count and set of Defendants in turn. The various
claims and the defenses thereto are set forth in Exhibit
A, set out as the Appendix to this decision.
In sum, the State Defendants’ Motion to Dismiss
shall be GRANTED as it relates to all counts regarding the Delaware Department of Education and Wayne
Barton and Lillian Lowery. The School Defendants’
Motion to Dismiss shall also be GRANTED as it
17

Super. Ct. Civ. R. 12(b)(6)
Spence v. Funk, 396 A.2d 967, 968 (Del. Supr. 1978).
19
Doe v. Cahill, 884 A.2d 451, 458 (Del.2005); Burkhart v.
Davies, 602 A.2d 56, 59 (Del. 1991).
20
Spence v. Funk, 396 A.2d at 968 (Del. Supr. 1978).
18

App. 61
relates to all named individuals. The reasons for their
dismissals are as follow below.
The Court will first analyze the Motion to Dismiss
on behalf of the State Defendants with regard to all
Plaintiff ’s claims, and then analyze the Motion to Dismiss on behalf of the School Defendants with regard to
all Plaintiff ’s claims.
A. State Defendants’ Motion to Dismiss
The State Defendants’ Motion to Dismiss seeks to
dismiss all three claims submitted by the Plaintiff
against the State: 1) defamation; 2) conspiracy; and,
3) tortious interference with business relations. The
State Defendants claim that all counts are barred by
the doctrine of sovereign immunity. The State Defendants further assert that, in addition to the bar of sovereign immunity, the defamation claim is barred by
the statute of limitations and privilege, the conspiracy
claim is barred by privilege, and the tortious interference claim is barred by the statute of limitations and
failure of Plaintiff to state a claim upon which relief
can be granted. The Court will address each defense
and claim in turn.
i. Sovereign Immunity
The State Defendants seek to dismiss all Plaintiff ’s claims with regard to Wayne Barton, Lillian
Lowery, and the Delaware Department of Education
(DDOE) on the grounds of sovereign immunity. The

App. 62
Motion to Dismiss alleges that sovereign immunity is
an absolute bar to all of Plaintiff ’s claims against the
State since there has been no clear waiver of such
immunity by the General Assembly.21 The Motion to
Dismiss further asserts that the protection of the
doctrine of sovereign immunity should extend to Dr.
Barton and Dr. Lowery as Plaintiff ’s allegations stem
from Dr. Barton’s and Dr. Lowery’s actions in their
official capacities as employees of DDOE at the time
of the alleged claims.
The Court finds that the Delaware Department of
Education is entitled to sovereign immunity and therefore Plaintiff has no viable cause of action against
DDOE. DDOE has not waived sovereign immunity
and therefore the Court lacks jurisdiction to proceed
against DDOE in this case.22 Unless the State has
expressly waived sovereign immunity, sovereign immunity bars Plaintiff ’s claims against the State.23
There has been no express waiver of sovereign immunity in this case. Accordingly, the State is entitled to protection under the doctrine of sovereign immunity and
all Plaintiff ’s claims against the Delaware Department of Education are barred.
Similarly, sovereign immunity also bars recovery
against Dr. Barton and Dr. Lowery. The Plaintiff
21

State Defendants’ Mot. to Dismiss ¶ 5 (citing Wilmington
Housing Auth. v. Williamson, 228 A.2d 782, 786 (Del. 1967)).
22
See Smith v. Bunkley, 2016 WL 4146449, at *4 (Del. Super.
August 3, 2016)
23
Id.

App. 63
alleges that these Defendants exercised gross and
wanton negligence, as well as malice, through the publication on NASDEC as well as through the memorandum sent by Dr. Barton to Dr. Lowery. The Plaintiff
asserts that this exercise of malice and gross and wanton negligence is sufficient to overcome application of
the doctrine of sovereign immunity. While it is true
that the State Tort Claims Act provides an exception
for actions within official duties done with either gross
negligence or bad faith,24 as noted by the Court in
Smith,

24

Del. Code Ann. tit. 10, § 4001 provides:
Except as otherwise provided by the Constitutions or
laws of the United States or of the State of Delaware,
as the same may expressly require or be interpreted as
requiring by a court of competent jurisdiction, no claim
or cause of action shall arise, and no judgment, damages, penalties, costs or other money entitlement shall
be awarded or assessed against the State or any public
officer or employee, including the members of any
board, commission, conservation district or agency of
the State, whether elected or appointed, and whether
now or previously serving as such, in any civil suit or
proceeding at law or in equity, or before any administrative tribunal, where the following elements are present:
(1) The act or omission complained of arose out of and
in connection with the performance of an official duty
requiring a determination of policy, the interpretation
or enforcement of statutes, rules or regulations, the
granting or withholding of publicly created or regulated entitlement or privilege or any other official duty
involving the exercise of discretion on the part of the
public officer, employee or member, or anyone over

App. 64
“The Delaware Supreme Court has held that
‘[g]rossly negligent acts per se and the State
Tort Claims Act come into play only after an
express intent to waive sovereign immunity
has been identified.’ The State Tort Claims
Act is an additional defense, not a waiver of
sovereign immunity, and applies only where
the General Assembly has waived sovereign
immunity . . .
In this case, as in Smith, Plaintiff has not proffered an
express waiver of sovereign immunity. Therefore, the
State Tort Claims act is irrelevant to Plaintiff ’s claims
at issue because the State Tort Claims Act only comes
into play after an express waiver of sovereign immunity. Accordingly, there being no waiver of sovereign immunity, the State Tort Claims Act’s exceptions based
on malice and gross negligence have no application.
whom the public officer, employee or member shall
have supervisory authority;
(2) The act or omission complained of was done in
good faith and in the belief that the public interest
would best be served thereby; and
(3) The act or omission complained of was done without gross or wanton negligence; provided that the immunity of judges, the Attorney General and Deputy
Attorneys General, and members of the General Assembly shall, as to all civil claims or causes of action
founded upon an act or omission arising out of the performance of an official duty, be absolute; provided further that in any civil action or proceeding against the
State or a public officer, employee or member of the
State, the plaintiff shall have the burden of proving the
absence of 1 or more of the elements of immunity as set
forth in this section.

App. 65
Plaintiff ’s complaint offered no factual allegations
upon which the Court could find that Dr. Lowery and
Dr. Barton were acting outside of their official capacities such that sovereign immunity would not apply.
Dr. Barton was clearly acting in his official capacity in
drafting a memorandum regarding the Plaintiff as
part of DDOE’s investigation under 14 Del C. §1218.
Moreover, the act of submitting information for publication for the NASDEC Clearinghouse website also
falls within the official capacities of employees at the
DDOE.
Therefore, all claims as against Wayne Barton and
Lillian Lowery are barred because they acted only in
their official capacities in regard to Plaintiff. If there
had been a waiver of sovereign immunity, and Plaintiff
sufficiently pled gross negligence or malice, a claim
against the State Defendants may have gone forward
under the State Tort Claims Act. However, without
such a waiver of sovereign immunity, exceptions for
gross negligence and malice do not apply.25
Accordingly, even though the Plaintiff alleges
that the actions of Wayne Barton and Lillian Lowery
were committed with either bad faith or gross negligence, these Defendants cannot be held liable because
there has been no waiver of sovereign immunity and
the Plaintiff has offered no evidence that the Defendants were acting outside of their official capacities.

25

See Smith v. Bunkley, 2016 WL 4146449, at *4 (Del. Super.
August 3, 2016).

App. 66
Accordingly, all claims against Wayne Barton and
Lillian Lowery must be dismissed.
Accordingly, the State Defendant’s Motions to Dismiss shall be GRANTED as to all counts regarding
DDOE, Wayne Barton, and Lillian Lowery.
ii. Defamation Claim as to the Letter Between
Dr. Barton and Dr. Lowery
a. Privilege
Even without the protection of sovereign immunity, Plaintiff ’s claims arising out of the context of the
memorandum sent between Dr. Barton and Dr. Lowery
are barred by the privilege doctrine. Plaintiff claims
that Dr. Barton defamed him in an internal memorandum sent to Dr. Lowery as part of DDOE’s investigation under 14 Del C. §1218 regarding Plaintiff ’s
licensure. Dr. Barton’s letter was sent to the Plaintiff
as part of a packet of files sent by the Pennsylvania
Department of Education after Plaintiff applied for a
teaching job in Pennsylvania. Plaintiff claims that this
letter contains defamatory information and was essentially published when the letter was sent to the Pennsylvania DOE.26
In order to establish a defamation claim, Plaintiff
must prove: 1) the defamatory character of the communication; 2) publication; 3) that the communication
refers to the Plaintiff; 4) the third party’s understanding of the communication’s defamatory character; and,
26

Compl. ¶ 96.

App. 67
5) injury.27 The Court finds that the Plaintiff ’s allegations of defamation regarding the letter and the
NASDEC publication are well-pled.28 Plaintiff need
only aver defamation generally in order to survive a
Motion to Dismiss.29 The State Defendants do not contest that the information published on the NASDEC
website was factually incorrect.
Additionally, the Court disagrees with the State
Defendants’ allegation that the letter from Dr. Barton
to Dr. Lowery was not published because it was merely
an internal memorandum. The State Defendants cite
Lynch v. Mellon Bank of Delaware30 in support of
their contention that Dr. Barton’s letter to Dr. Lowery
did not constitute publication. However, in Lynch, the
Plaintiff claimed she was defamed by her employer
because she stated she would have to self-disclose
the reasons for her wrongful dismissal to potential employees and that this self-disclosure would constitute
publication. The Court acknowledged that although
self-disclosure constituted publication in a minority of
jurisdictions, it was not the law in Delaware. In this
27

Lynch v. Mellon Bank of Delaware, 1992 WL 51880, at *3
(Del. Super. 1992).
28
Superior Court Rule 9(b) states that malice, intent,
knowledge, and other condition of mind of a person may be
averred generally.
29
See Cornell Glasgow, LLC v. La Grange Properties, LLC,
2012 WL 2106945, at *10 (Del. Super. 2012); Universal Capital
Management, Inc. v. Micco World, Inc., 2012 WL 1413598, at *5
(Del. Super. 2012).
30
Lynch v. Mellon Bank of Delaware, 1992 WL 51880, at *3
(Del. Super. 1992).

App. 68
case, however, the letter written by Dr. Barton was sent
to another individual, Dr. Lowery. The law of publication in defamation is well-established: communication
to one other than the person defamed, even merely one
other person, may be enough to constitute publication
under the law.31 Accordingly, the Court finds the Plaintiff sufficiently pled the claim of defamation regarding
the letter from Dr. Barton to Dr. Lowery.
Nonetheless, the publication of defamatory matter
is not subject to tort liability if the matter is published
upon an occasion that makes it privileged.32 The DDOE
provided Pennsylvania DOE with Plaintiff ’s file in response to Pennsylvania’s civil investigative request
and therefore was part of a mandatory disclosure.33
Moreover, Dr. Barton originally wrote the letter as part
of DDOE’s investigation under 14 Del C. §1218 regarding Plaintiff ’s licensure.
Because Dr. Barton’s letter to Dr. Lowery was part
of a statutorily required investigation, and the subsequent disclosure of that letter was part of a mandatory
disclosure in response to Pennsylvania’s civil investigation, these actions are privileged as a matter of law.34
31

RESTATEMENT (SECOND) OF TORTS § 577 comment b (1977).
Id., § 593.
33
Compl. ¶ 96.
34
Gautschi v. Maisel, 565 A.2d 1009, 10011 (Me. 1989) (statements made by college employee reviewing another teacher’s
credentials for permanent employment were subject to conditional privilege) (citing RESTATEMENT (SECOND) OF TORTS § 596
comment d (1977); Ikani v. Bennett, 682 S.W.2d 747, 748-49
(Ark. 1985) (recognizing qualified privilege for employers who
32

App. 69
Even though Plaintiff ’s defamation claims meet the
standard of pleadings accepted in Delaware, because
the disclosures alleged are privileged, they do not subject Defendants to liability for defamation. Accordingly, Plaintiff ’s claim of defamation by Dr. Barton, Dr.
Lowery with regard to the letter must be DISMISSED
for this additional reason.
b. Statute of Limitations
The State Defendants further claim that the statute of limitations bars Plaintiff ’s recovery on the defamation claim. There is a two year statute of limitations
for defamation claims.35 According to the State Defendants, Plaintiff was aware of the letter in 2009 and
Plaintiff was or should have been aware of its contents
which Plaintiff claims were defamatory. However, the
Court finds that Plaintiff could not be held to have
known at this stage of the proceedings that the letter
was sent to the Pennsylvania DOE, nor about the publication on NASDEC, before being sent this information in August of 2013 by Pennsylvania. Discovery
on this issue might prove otherwise, but perhaps not.
Plaintiff filed these proceedings in July of 2015.
Even if the statute of limitations would have run
beginning in 2009, a statute of limitations may be
communicate on performance of lower ranking employee; citing
PROSSER, LAW OF TORTS § 110 (3d ed.).
35
10 Del. C. § 8119; See Clark v. Delaware Psychiatric Ctr,
2011 WL 3762038, at *1 (Del. Super. 2011) (stating a two-year
statute of limitations for defamation).

App. 70
tolled in certain instances when the issue is “inherently unknowable.” For example, in Wal-Mart Stores,
Inc., v. AIG Life Ins. Co.,36 the Delaware Supreme Court
found that Wal-Mart could not have been on inquiry
notice due to publication in certain newspaper articles.
Essentially, the Court held that Wal-Mart could not
have been expected to discover an issue from newspaper articles. Likewise, the Plaintiff could not have
been expected to know that information regarding his
suspension was published falsely on NASDEC, particularly when NASDEC is only accessible by state education administrators. Although the State Defendants
claim that Plaintiff could have requested his personnel
file, the Court finds that, without more, this assumption without the benefit of discovery is too tenuous to
begin accrual on the statute of limitations. Accordingly,
the Court finds at this stage that the information regarding the NASDEC publication and the letter was
inherently unknowable.37 Therefore, the statute of
limitations may have been tolled until Plaintiff was
sent this information through the Pennsylvania DOE
on in August of 2013. Accordingly, Plaintiff ’s claims
cannot be said to be barred by the statute of limitations
as to State Defendants at this time.

36

Wal-Mart Stores, Inc., v. AIG Life Ins. Co., 860 A.2d 312
(2004) (Del. Supr. Ct).
37
See Thomas v. Capano Homes, Inc., 2015 WL 1593618, at
*2 (Del. Super. 2015) (finding that it was too early in the proceedings to determine that the statute of limitations had begun to
accrue).

App. 71
iii. Conspiracy
a. Failure to state a claim
Plaintiff alleges that Dr. Barton and Dr. Lowery, as
well as the School Defendants, colluded against him at
the hearing regarding his licensure before the Professional Standards Board. However, the facts alleged
by the Plaintiff are not enough to state a viable claim
for conspiracy, even under the low threshold required
of pleadings in Delaware. To state a claim for civil
conspiracy, Plaintiff must allege (i) a confederation or
combination of two or more persons; (ii) an unlawful
act done in furtherance of the conspiracy; and (iii) damages resulting from the action of the conspiracy parties. As noted in Aviation W. Charters, LLC v. Feer, “[a]
claim for civil conspiracy is not a separate cause of
action; instead, the underlying claim must be an independent tort action such as fraudulent inducement. A
claim for civil conspiracy cannot survive a motion to
dismiss if there are not sufficient facts to establish the
conspiratorial relationship and an overt act in furtherance of the conspiracy occurred.”38
The Plaintiff here fails to allege a specific definitive act constituting any conspiracy as pled in the
Complaint; his claims are merely conclusory. Plaintiff
fails to allege any specific facts to support his conclusion that there must have been a conspiracy. Moreover, Plaintiff ’s claim fails because there is no
underlying action constituting an unlawful act done
38

Aviation W. Charters, LLC v. Freer, 2015 WL 5138285, at
*10-11 (Del. Super. Ct. 2015).

App. 72
in furtherance of the conspiracy. Plaintiff ’s defamation
claims are barred by sovereign immunity and his
claim regarding defamation by Dr. Barton’s letter to
Dr. Lowery is further barred by privilege; if the claim
based upon the underlying act is barred, any alleged
conspiracy to commit the underlying act is similarly
barred. Plaintiff therefore failed to sufficiently plead a
claim for civil conspiracy.
b. Privilege
Plaintiff ’s contends that Dr. Barton and Dr. Lowery,
as well as the State Defendants, conspired to defame
him in the hearing before the Professional Standards
Board. State Defendants allege that Plaintiff ’s conspiracy claim is also barred by the absolute privilege
afforded to witnesses in judicial proceedings.39 However, this hearing was not in a court of law, but rather
was an administrative hearing before a licensing
board.
American courts have held that matters presented
at certain administrative hearings where the hearings
afford substantive fairness through regular and orderly procedure are entitled to absolute immunity
from civil liability.40 The focus of the inquiry in such
39

Nix v. Sawyer, 466 A.2d 407, 410-411 (Del. Super. 1983).
Rainier’s Dairies v. Rariton Valley Farms, 19 N.J. 552, 117
A.2d 889 (1955); Stafney v. Standard Oil Co., 71 N.D. 170, 299
N.W. 582, 136 A.L.R. 535 (1941); Shortz v. Farrell, 327 Pa. 81, 193
A. 20 (1937); White v. United Mills Co., Inc., 240 Mo.App. 443, 208
S.W.2d 803 (K.C. Ct. of Ap.1948); Tatro v. Esham, 335 A.2d 623,
626 (Del. Super. Ct. 1975).
40

App. 73
cases has been to determine whether the traditional
safeguards attending the judicial process are afforded.41 These safeguards include notice, authority
to take testimony and punish perjury, and review
through appeal procedures.
At this stage, the Court does not have before it
sufficient facts regarding the hearing before the Professional Standards Board to determine whether appropriate due process safeguards were afforded the
Plaintiff. Therefore, the Court is unable to determine
whether the statements made by Dr. Barton and Dr.
Lowery should be afforded the absolute privilege given
to witnesses in judicial proceedings. The basis for dismissal of the conspiracy claim must therefore fail at
this time.
iv. Tortious Interference with Business Relations
a. Failure to State a Claim
Plaintiff contends that the State Defendants tortuously interfered with his teaching career and job prospects by publishing the false information on NASDEC
and by forwarding the internal memorandum to Pennsylvania. In order to state a claim for tortious interference with business relations, the Plaintiff must prove:
1) the existence of a valid business relation or expectancy; 2) the interferer’s knowledge of the relationship
or expectancy; and, 3) intentional interference; 4) that
41

Tatro v. Esham, 335 A.2d 623, 626 (Del. Super. Ct. 1975).

App. 74
induces or causes a breach or termination of the relationship or expectancy; and, 5) that caused resulting
damages to the party whose relationship or expectancy
is disrupted.42
State Defendants claim that Plaintiff has failed to
allege a valid claim upon which relief can be granted
as to the tortious interference claim. The Court agrees.
The Plaintiff fails to allege specifically the business
opportunity as to which there was a reasonable probability of fruition which ended because of the actions
of the State.43 As the State Defendants’ note, Plaintiff
fails to allege with any degree of specificity facts going
to the issue of Dr. Barton’s or Dr. Lowery’s knowledge
of Plaintiff ’s career prospects or how their actions
constituted international interference with those prospects. Accordingly, Plaintiff fails to valid claim for
tortious interference with business relations.
b. Statute of Limitations
The State Defendants further claim that the statute of limitations bars Plaintiff ’s recovery as to the
tortuous interference claim. There is a three year statute of limitations for claims for tortious interference
with business relations.44 However, as in the State
42

Griffin Corp. Serv. v. Jacobs, 2005 WL 20000775, at *5
(Del. Ch. 2005).
43
See Wyshock v. Malekzadeh, 1992 WL 148002 (Del. Super.
1992).
44
10 Del. C. § 8106; See Merck & Co., Inc. v. SmithKline
Beecham Pharmaceuticals Co., 1999 WL 669354 (Del. Ch. 1999).

App. 75
Defendants’ statute of limitations defense to Plaintiff ’s
defamation claim, the Court finds that Plaintiff could
not be held to have known at this stage of the proceedings that the letter was sent to the Pennsylvania DOE,
nor about the publication on NASDEC, before being
sent this information in August of 2013 by Pennsylvania.
As noted supra, Plaintiff could not have been expected
to know that information regarding his suspension was
published falsely on NASDEC. Accordingly, the Court
finds at this stage that the information regarding the
NASDEC publication and the letter was inherently
unknowable.45 Therefore, the statute of limitations
may have been tolled until Plaintiff was sent this
information through the Pennsylvania DOE on in
August of 2013. Accordingly, Plaintiff ’s claims cannot
be said to be barred by the statute of limitations as to
State Defendants at this time.
v. Conclusion
Accordingly, the State Defendants’ Motion to Dismiss is GRANTED. Plaintiff ’s claims against the DDOE
are barred by the doctrine of sovereign immunity.
Plaintiff ’s claims against Dr. Barton and Dr. Lowery
are also barred by the doctrine of sovereign immunity
because there has been no waiver of sovereign immunity and they were acting in their official capacities in
all actions complained of by the Plaintiff. Additionally,
45

See Thomas v. Capano Homes, Inc., 2015 WL 1593618,
at *2 (Del. Super. 2015) (finding that it was too early in the proceedings to determine that the statute of limitations had begun to
accrue).

App. 76
although Plaintiff ’s claims regarding defamation were
sufficiently well-pled to surpass the Motion to Dismiss,
and Plaintiff ’s claims are not barred by the statute
of limitations, the Court nonetheless finds that the
disclosures were privileged as well as barred by sovereign immunity. Finally, Plaintiff ’s allegations regarding conspiracy and tortious interference failed to
establish a viable claim against the Defendants. For
the aforementioned reasons, the State Defendants’
Motion to Dismiss is hereby GRANTED.
B. School Defendants’ Motion to Dismiss
The School Defendants’ Motion to Dismiss seeks
to dismiss all three claims submitted by the Plaintiff
against them: 1) defamation; 2) conspiracy; and, 3) tortious interference with business relations. The School
Defendants assert the defamation claim is barred by
the statute of limitations and lack of publication, the
conspiracy claim is barred by privilege and the statute
of limitations, and the tortious interference claim is
barred by the at-will employment doctrine, failure to
state a claim upon which relief may be granted, and
the statute of limitations. Similar to the State Defendant’s defenses and claims, the Court will consider
each defense and claim in turn.
i. Defamation
a. Statute of Limitations
Plaintiff claims that he was defamed in a March 5,
2009 letter and investigation by Kim Doherty, then

App. 77
Director of Human Resources of the Brandywine
School District. The School Defendants assert that this
claim is barred by the two year statute of limitations.46
Conversely, Plaintiff contends any statute of limitations would have been tolled because the letter was
included in the personnel file he received from Pennsylvania DOE in August of 2013.
The Court finds that the statute of limitations has
not been tolled in this instance. Although the Court
found that the statute of limitations had been tolled
with regard to the publication on NASDEC and the
letter sent from Dr. Barton to Dr. Lowery, this tolling
was due to the Plaintiff ’s lack of knowledge of these
publications until August of 2013. Unlike those acts,
Ms. Doherty’s letter to Plaintiff was received by him
in 2009. Therefore, Plaintiff knew of the contents of
the letter arising out of Ms. Doherty’s investigation of
Plaintiff in 2009. The fact that the letter was not included in the NASDEC packet and produced to him
in 2013 did not resurrect Plaintiff ’s claim. Accordingly,
the statute of limitations is not tolled in this instance.
Plaintiff did not file this suit until July of 2015,
more than two years after he knew of the contents of
Ms. Doherty’s letter and investigation. Therefore,
Plaintiff ’s claim regarding the alleged defamation
committed by Ms. Doherty is time-barred.

46

There is a two year state of limitations for defamation
claims. 10 Del. C. § 8119; See Clark v. Delaware Psychiatric Ctr,
2011 WL 3762038, at *1 (Del. Super. 2011) (stating a two-year
statute of limitations for defamation).

App. 78
b. Lack of Publication
The School Defendants propose an additional defense similar to that proffered by the State Defendants
regarding a lack of publication as to the defamation
claim. The School Defendants assert that the letter
written by Ms. Doherty and sent to administrators was
not published because it was merely an internal memorandum. However, the Court disagrees. The School Defendants likewise cite Lynch v. Mellon Bank of Delaware47
in support of their contention that Ms. Doherty’s letter
to other administrators did not constitute publication.
However, as noted by the Court supra, the law of publication in defamation is well-established; communication to one other than the person defamed, even merely
one other person, may be enough to constitute publication under the law.48 Accordingly, the Court finds the
Plaintiff sufficiently pled the claim of defamation regarding the letter from Ms. Doherty to other administrators.
ii. Conspiracy
a. Privilege
Plaintiff contends that Kim Doherty and Patrick
Bush, as well as the State Defendants, conspired to
defame him in the hearing before the Professional
Standards Board. Like the State Defendants, the
School Defendants assert that Plaintiff ’s conspiracy
47

Lynch v. Mellon Bank of Delaware, 1992 WL 51880, at *3
(Del. Super. 1992).
48
RESTATEMENT (SECOND) OF TORTS § 577 comment b (1977).

App. 79
claim is also barred by the absolute privilege afforded
to witnesses in judicial proceedings.49 However, as the
Court noted supra, this hearing was not in a court of
law, but rather was an administrative hearing before a
licensing board. As found supra, the Court is unable to
determine at this stage of the proceedings whether the
statements made by Ms. Doherty and Mr. Bush should
be afforded the absolute privilege given to witnesses in
judicial proceedings.
b. Statute of Limitations
Defendants further claim that Plaintiff ’s contentions of civil conspiracy are time-barred. Plaintiff contends that he was conspired against by the School
Defendants, specifically Kim Doherty and Patrick Bush,
at the hearing at the Professional Standards Board on
November 4, 2010. There is a two-year statute of limitations for conspiracy.50 Unlike the issue regarding the
NASDEC publication, supra, Plaintiff was aware of the
events of the hearing and was present. Plaintiff did not
file this action until July of 2015, nearly five (5) years
after the hearing before the Delaware Professional
Standards Board. Accordingly, the statute of limitations bars Plaintiff ’s claim.

49

Nix v. Sawyer, 466 A.2d 407, 410-411 (Del. Super. 1983).
10 Del. C. § 8119; See Anderson v. Anderson-Harrison,
2013 WL 4492797, at *4 (Del. Super. 2013).
50

App. 80
iii. Tortious Interference with Business Relations
a. At-Will Employment
Plaintiff claims Defendants tortuously interfered
with his prospective business relations by requesting
to remove him from the list of potential substitute
teachers for Brandywine School District. In order to
establish a claim for tortious interference with prospective business relations, a Plaintiff must show:
(1) a reasonable probability of a business opportunity,
(2) intentional interference by a defendant with that
opportunity, (3) proximate causation, and (4) damages.51
The School Defendants claim that this allegation
is barred because Plaintiff ’s job with Kelly’s Educational Staffing constitutes at-will employment. Delaware
does not recognize an action for tortious interference
with an at-will employment relationship.52 A “heavy
presumption” exists that “a contract for employment,
unless otherwise expressly stated, is at-will in nature,
with duration indefinite.”53

51

Triton Const. Co., Inc. v. E. Shore Elec. Servs., Inc., 2009
WL 1387115, at *17 (Del. Ch. May 18, 2009), aff ’d, 988 A.2d 938
(Del. 2010); see also Griffin Corp. Servs., LLC v. Jacobs, 2005 WL
2000775, at *5 (Del. Ch. Aug. 11, 2005).
52
Triton Const. Co. v. E. Shore Elec. Servs., Inc., 2009 WL
1387115, at 17.
53
E.I. DuPont de Nemours & Co. v. Pressman, 679 A.2d 436,
440 (Del. 1996). See Biliski v. Red Clay Consol. Sch. Dist. Bd. of
Educ., 2008 WL 399660, at *1 (D. Del. Feb. 14, 2008), aff ’d, 574
F.3d 214 (3d Cir. 2009) (finding a computer technician who

App. 81
Plaintiff was a substitute teacher placed through
Kelly Educational Staffing. School Defendants categorize substitute teachers as at-will employees. Plaintiff
provides no evidence to overcome the “heavy presumption” he was an employee at-will; in fact, he acknowledges he had an implied contract, though terminable
at-will. Thus, Plaintiff was an at-will employee and
cannot assert a tortious interference against prospective business relations claim.
Further, Ms. Doherty’s act does not qualify as tortious interference with a prospective business relationship because it did not affect Plaintiff ’s prospective
relationship with a third-party. Delaware generally
follows the RESTATEMENT OF TORTS with respect to
tortious interference.54 § 766(B) of the RESTATEMENT
restricts claims to interference that prevents the individual from entering into or continuing a prospective
business relationship with a third person. Here, Ms.
worked at a school for five years was an employee at-will); Heideck
v. Kent Gen. Hosp., Inc., 446 A.2d 1095 (Del. 1982) (holding
“[e]mployee who admitted she was not hired by employer on basis
of a written contract which set out terms, conditions or duration
of her employment, agreed that employer never orally promised
her employment for a definite length of time, and conceded that
she did not consider herself bound to work for employer for a
fixed term of employment was an employee at will.”). Under the
employment at-will doctrine, either party has the right to end
employment at any time and no cause for termination needs to
be alleged or proved. Rizzo v. E. I. du Pont de Nemours & Co.,
1989 WL 135651, at *1 (Del. Super. Oct. 31, 1989) (citing Greer v.
Arlington Mills Mfg. Co., Del.Super., 43 A. 609 (1899)).
54
Allen Family Foods Inc. v. Capitol Carbonic Corp., 2011
WL 1205138, *3 (Del. Super. Mar. 31, 2011).

App. 82
Doherty, acting as the Director of Human Resources
for Brandywine School District, submitted a request
to Kelly Educational Staffing that Plaintiff not be
placed as a substitute teacher with Brandywine School
District. Although Plaintiff claims this damages his
business prospects and professional reputation, Ms.
Doherty did not interfere with Plaintiff ’s ability to
work for a different school district outside of her control nor to continue receiving opportunities to substitute teach through Kelly Educational Staffing; rather,
merely that Plaintiff not be placed in the Brandywine
School District. Therefore, on the facts pleaded by
Plaintiff, Ms. Doherty did not interfere with Plaintiff ’s
ability to enter into or continue a prospective working
relationship with a third party and the claim of tortious interference must therefore fail.
Accordingly, Plaintiff cannot be entitled to recovery based on his allegation that Ms. Doherty interfered
with his employment prospects as a substitute teacher
because he was an at-will employee and because she
did not affect his prospective business relationship
with a third-party.
b. Failure to State a Claim
Plaintiff also alleges that School Defendants like
DDOE tortuously interfered with his potential business relations by launching a “whisper campaign”
against him to schools where he applied to work in
Delaware. School Defendants and DDOE argue the
claim is insufficient and should be dismissed because

App. 83
Plaintiff fails to provide tangible facts in support of his
allegation.
The Court agrees. As noted supra, the Plaintiff
fails to allege specifically the business opportunity as
to which there was a reasonable probability of fruition
which ended because of the actions of the School Defendants.55 Plaintiff fails to allege with specificity
School Defendants’ knowledge of Plaintiff ’s career prospects or how their actions constituted international
interference with those prospects. Accordingly, Plaintiff fails to valid claim for tortious interference with
business relations.
c. Statute of Limitations
Defendants further claim that Plaintiff ’s contentions of tortious interference are time-barred. Plaintiff
contends that the School Defendants tortiously interfered with his job prospects by conducting a “whisper
campaign” against him and unjustly terminating his
employment at Brandywine School District. There is a
three year statute of limitations for claims for tortious
interference with business relations.56 Unlike the issue
regarding the NASDEC publication, supra, Plaintiff
was aware of the events surrounding his termination.
Plaintiff did not file this action until July of 2015,
nearly five (5) years after the events of his termination.
55

See Wyshock v. Malekzadeh, 1992 WL 148002 (Del. Super.

1992).
56

10 Del. C. § 8106; See Merck & Co., Inc. v. SmithKline
Beecham Pharmaceuticals Co., 1999 WL 669354 (Del. Ch. 1999).

App. 84
Accordingly, the statute of limitations bars Plaintiff ’s
claim.
iv. Conclusion
The School Defendants’ Motion to Dismiss is
GRANTED. Plaintiff ’s claims against the School Defendants are barred. Although Plaintiff ’s claims regarding defamation were sufficiently well-pled to
surpass the Motion to Dismiss, such claims by Plaintiff are barred by the statute of limitations. Plaintiff ’s
claims regarding conspiracy are also barred by the
statute of limitations. Finally, Plaintiff ’s allegations
regarding tortious interference failed to establish a
viable claim against the Defendants and are barred
by the statute of limitations. For the aforementioned
reasons, the School Defendants’ Motion to Dismiss is
hereby GRANTED.
IV. CONCLUSION
For the aforementioned reasons, the Motions to
Dismiss by each Defendant are hereby GRANTED as
to all claims.
IT IS SO ORDERED.
12/28/16
Date Written
Order Issued
RBC/cap/jpg

/s/ Robert Burton Coonin
ROBERT BURTON COONIN,
JUDGE

App. 85

App. 86
IN THE SUPREME COURT
OF THE STATE OF DELAWARE
JEFFREY A. CLOUSER, §
§
Plaintiff Below,
§
Appellant,
§
v.
§
§
KIM DOHERTY, et al.,
§
Defendants Below,
§
§
Appellees.

No. 175, 2019
Court Below:
Superior Court of the
State of Delaware
C.A. No. N15C-07-240

Submitted: December 2, 2019
Decided:
December 3, 2019
Before SEITZ, Chief Justice; VALIHURA, and TRAYNOR, Justices, constituting the qualified and available
members of the Court en Banc.1
ORDER
This 3rd day of December, 2019, the Court having
carefully considered the motion for rehearing en Banc
filed by Plaintiff Below, Appellant and it appears that
the motion for rehearing en Banc is without merit and
should be denied.

1

Supreme Court Rule 4(f) and Internal Operating Procedure
XVII(2).

App. 87
NOW, THEREFORE, IT IS ORDERED that the
motion for rehearing en Banc is DENIED.
BY THE COURT:
/s/ Collins J. Seitz, Jr.
Chief Justice

App. 88
TITLE 10
Courts and Judicial Procedure
Procedure
CHAPTER 40. Tort Claims Act
Subchapter I. State Tort Claims
§ 4001 Limitation on civil liability.
Except as otherwise provided by the Constitutions or
laws of the United States or of the State of Delaware
as the same may expressly require or be interpreted as
requiring by a court of competent jurisdiction, no claim
or cause of action shall arise, and no judgment, damages, penalties, costs or other money entitlement shall
be awarded or assessed against the State or any public officer or employee, including the members of any
board, commission, conservation district or agency of
the State, whether elected or appointed, and whether
now or previously serving as such, in any civil suit or
proceeding at law or in equity, or before any administrative tribunal, where the following elements are present:
(1) The act or omission complained of arose out
of and in connection with the performance of an
official duty requiring a determination of policy,
the interpretation or enforcement of statutes,
rules or regulations, the granting or withholding
of publicly created or regulated entitlement or
privilege or any other official duty involving the
exercise of discretion on the part of the public officer, employee or member, or anyone over whom

App. 89
the public officer, employee or member shall have
supervisory authority;
(2) The act or omission complained of was done
in good faith and in the belief that the public interest would best be served thereby; and
(3) The act or omission complained of was done
without gross or wanton negligence;
provided that the immunity of judges, the Attorney
General and Deputy Attorneys General, and members
of the General Assembly shall, as to all civil claims
or causes of action founded upon an act or omission
arising out of the performance of an official duty, be absolute; provided further that in any civil action or proceeding against the State or a public officer, employee
or member of the State, the plaintiff shall have the burden of proving the absence of 1 or more of the elements
of immunity as set forth in this section.

Title 14
Education
*

*

*

§ 1218 Limitation, suspension and revocation of
licenses.
(a) The Secretary may suspend, revoke, or limit a license or certificate that has been issued to any person
pursuant to this chapter, for the following causes:

App. 90
(1) Obtaining or attempting to obtain a license or
certificate by fraudulent means or through misrepresentation of material facts;
(2) Falsifying official school records, documents,
statistics, or reports;
(3) Knowingly violating any of the provisions of
the state assessment system set forth in § 172 of
this title;
(4) Pleading guilty or nolo contendere with respect to, or is convicted of, any crime against a
child constituting a misdemeanor, except for unlawful sexual contact in the third degree [§ 767 of
Title 11];
(5) Pleading guilty or nolo contendere with respect to, or is convicted of, possession of a controlled substance or a counterfeit controlled
substance classified as such in Schedule I, II, III,
IV or V of Chapter 47 of Title 16;
(6) Immorality incompetence, misconduct in office,
wilful neglect of duty, disloyalty, or misconduct involving any cause for suspension or revocation of
a license provided for in this section; or
(7)

[Repealed.]

(8) Having had a license or certificate suspended,
revoked, or voluntarily surrendered in another jurisdiction for cause which would be grounds for
suspension or revocation under this section.
(b) Notwithstanding the provisions of subsection (a)
of this section, the Secretary shall revoke a license or

App. 91
certificate if the license holder does any of the following:
(1) Pleads guilty or nolo contendere with respect
to, or is convicted of any of the following:
a. Any crime constituting the manufacture,
delivery, possession with intent to manufacture or deliver a controlled substance or a
counterfeit controlled substance classified as
such in Schedule I, II, III, IV or V of Chapter
47 of Title 16.
b. Any crime constituting a violent felony as
defined in § 4201(c) of Title 11.
c. Any crime against a child constituting a
felony, or unlawful sexual contact in the third
degree (§ 767 of Title 11).
d. Any crime constituting a felony sexual offense.
e. Any crime constituting a felony offense
against public administration involving bribery, improper influence or abuse of office.
(2)

Commits a sexual offense against a child.

(3)

[Repealed.]

(c) The Secretary may automatically suspend any license without a prior hearing if the license holder is
arrested or indicted by a grand jury for a violent felony
as defined in § 4201(c) of Title 11 or for any crime
against a child constituting a felony. A suspension under this subsection is effective on the date of the arrest
or grand jury indictment.

App. 92
(1) For a suspension under this subsection, the
Secretary shall issue a written temporary order of
suspension to the license holder at that license
holder’s last known address.
(2) The chief school officer or head of school, on
behalf of the local board of education or charter
school board of directors, shall report to the Secretary the name and last known address of any license holder employed by the district or charter
school who it knows to have been arrested or indicted by a grand jury for a violent felony as defined in § 4201(c) of Title 11 or for any crime
against a child constituting a felony.
(3) A license holder whose license has been suspended pursuant to this subsection may request
an expedited hearing before the Standards Board
within 20 calendar days from the date the notice
of the Secretary’s decision to temporarily suspend
the license holder’s license was mailed. In the
event that the license holder requests an expedited hearing in a timely manner, the Standards
Board shall convene a hearing within 90 days of
the receipt of such a request.
(4) If the license holder pleads guilty or nolo contendere with respect to, or is convicted of, a violent
felony as defined in § 4201(c) of Title 11 or any
crime against a child constituting a felony, the Secretary shall proceed with revocation under subsection (b) of this section.
(5) If the license holder is found not guilty of the
underlying criminal charges, a nolle prosequi is
entered on the record by the State, or the charges
are otherwise dismissed by the court, the license

App. 93
holder may file a written request for license reinstatement, including documentation of the final
status of the judicial proceeding, and their license
shall be reinstated If the license expired during
the period of suspension, the holder of the former
license may reapply for the same tier license that
was suspended, but shall meet the license requirements that are in effect at the time of the application for license.
(6) An order of suspension under this subsection
shall remain in effect until the final order of the
Secretary or the Standards Board becomes effective.
(d) The Secretary may take an action under subsection
(a), (b), or (c) of this section on the basis of substantially
comparable conduct occurring in a jurisdiction outside
this state or occurring before a person applies for or
receives any license.
(e) Any license holder who has pled guilty or nolo contendere to, or has been convicted of, a crime in a court
of law which would constitute grounds for revocation,
suspension or limitation of license under subsection (a)
or (b) of this section or has been arrested or indicted by
a grand jury for a violent felony as defined in § 4201(c)
of Title 11 or any crime against a child constituting a
felony, shall notify the Secretary of such action in writing within 20 days of such conviction, arrest or indictment, whether or not a sentence has been imposed.
Failure to do so shall be grounds on which the Secretary may limit, suspend, or revoke the holder’s license.

App. 94
(f ) Any license holder who has surrendered an educator license or any professional license or certificate
or who has had such a license or certificate revoked,
suspended, or limited in any jurisdiction or by any
agency shall notify the Secretary of such action in writing within 30 days of such action. Failure to do so shall
be grounds on which the Secretary may limit, suspend
or revoke the holder’s license.
(g) The chief school officer or head of school, on behalf
of the local board of education or charter school board
of directors, shall report to the Secretary the name and
last known address of any license holder who is dismissed, resigns, retires or is otherwise separated from
employment with that district or charter school after
the local board of education or charter school board of
directors provides to the license holder notice of intent
to terminate for misconduct that constitutes grounds
for revocation or suspension under subsection (a), (b),
or (c) of this section. Such report shall be made within
15 days of the dismissal, resignation, retirement or
other separation from employment and is required notwithstanding any termination agreement to the contrary that the local board of education or charter school
board of directors may enter into with the license
holder. The reasons for the license holder’s dismissal,
resignation, retirement or other separation from employment with the district or charter school shall also
be provided along with all evidence that was reviewed
by or is in the possession of the district or charter school
relating to the dismissal, resignation, retirement, or
other separation from employment. The Department

App. 95
shall give written notice to any license holder of any
notification received under this subsection to the license holder’s last known address. Such notification
shall be made within 15 days of receipt of the district
or charter school’s report to the Department of misconduct under this subsection. The obligation to report
also applies when a chief school officer or head of school
acquires relevant information after a license holder’s
dismissal, resignation, retirement, or other separation
from employment. Failure to make such reports shall
be grounds on which the Secretary may limit, suspend,
or revoke the chief school officer’s or head of school’s
license. All information obtained from the chief school
officer or head of school shall be confidential and shall
not considered public records under Delaware’s Freedom of Information Act (Chapter 100 of Title 29). If after having received notice of intent to terminate for
misconduct in office or immorality, a license holder requests and prevails at a hearing, there is no required
report to the Department.
(h) The Secretary may investigate any information
received about a person that reasonably appears to be
the basis for action under subsections (a) through (c) of
this section. The Secretary shall not investigate anonymous complaints. The Department shall give written
notice within a reasonable period of time to a license
holder of any investigation initiated hereunder to the
license holder’s last known address. All information
obtained during an investigation is confidential and
shall not be considered public records under Delaware’s
Freedom of Information Act (Chapter 100 of Title 29).

App. 96
The Secretary shall review the results of each investigation and shall determine whether the results warrant initiating action under subsection (a), (b), or (c) of
this section. All final orders issued by either the Secretary or the Professional Standards Board under this
section are public documents pursuant to § 10002 of
Title 29.
(i) Whenever the basis of for action under subsection
(a) or (b) of this section is a guilty plea, nolo contendere
with respect to, or a conviction of a crime, a copy of the
record of the plea, nolo contendere or conviction certified by the clerk of the court entering the plea, nolo
contendere or conviction shall be conclusive evidence
thereof.
(j) The Secretary may enter a consent agreement
with a person against whom action is being taken under subsection (a), (b), or (c) of this section.
(k) No action shall be taken against a person under
subsection (a) or (b) of this section without providing
the person with written notice of the charges and with
an opportunity for a full and fair hearing before the
Standards Board. Notice shall be personally delivered
or sent by certified mail to the person’s last known address. The license holder shall have 30 calendar days
from the date the notice of the charges was mailed to
make a written request for a hearing. Unless otherwise
provided for in this section, the burden of proof in
a license disciplinary action shall be on the agency
taking official action to establish by preponderance
of the evidence that the license holder has engaged in

App. 97
misconduct as defined by subsections (a) and (b) of this
section or otherwise has failed to comply with the applicable laws and regulations relating to the retention
of the license. At the conclusion of any such hearing,
the Professional Standards Board shall issue a final order finding the facts as determined by the hearing and
revoking, suspending, or limiting the license or certificate, if appropriate. If no written request for a hearing
is received by the Standards Board, the license holder’s
license shall be deemed to be revoked, suspended, or
limited in the manner set forth in the notice, and the
holder shall be so notified.
(l) A license may be suspended for a period of time
not to exceed 5 years. The license may be reinstated by
the Secretary, upon written request, with verification
that all requirements for license renewal have been
satisfied. If the license expired during the period of
suspension, the holder of the former license may reapply for the same tier license that was suspended but
shall meet the license requirements that are in effect
at the time of the application for the license.
(m) If any of the causes listed in subsection (a) or (b)
of this section are determined, the Secretary or the
Standards Board after a hearing, may put limitations
on a license that may include but is not limited to:
(1) Restrictions on the ages of students with
whom the license holder may work;
(2)

Additional supervision requirements; or

(3) Education, counseling, or psychiatric examination requirements.

App. 98
(n) If a decision of license limitation, suspension or
revocation is based on paragraph (a)(4), (a)(5), or (b)(1)
of this section, and if the plea or conviction is overturned and there is no subsequent proceeding leading
to a plea or conviction, the individual whose license is
limited, suspended or revoked may file a written request for reinstatement, including documentation of
the final status of the judicial proceeding, and the license shall be reinstated.
(o) An individual whose license has been revoked under subsection (a) of this section may petition the Secretary for reinstatement of the license not sooner than
5 years from the date of revocation. The individual
shall submit to the Secretary a written petition showing credible evidence, by affidavit or otherwise, of the
factors set forth in paragraph (o)(1) of this section.
(1) The Secretary shall consider all of the following criteria in evaluating a petition for reinstatement and shall only grant such a petition if it is in
the best interest of the public schools of the State:
a. The nature and circumstances of the individual’s original misconduct;
b. The individual’s subsequent conduct and
rehabilitation;
c.

The individual’s present character; and

d. The individual’s present qualifications and
competence to engage in the practice of instruction, administration or other related professional support services.

App. 99
(2) A former license holder is entitled to a full
and fair hearing before the Standards Board to
challenge a denial of reinstatement pursuant to
this subsection.
(3) A license revoked under subsection (b) of this
section or suspended under subsection (c) of this
section may not be reinstated under this subsection. A license revoked under paragraph (b)(1) of
this section may only be reinstated pursuant to
subsection (n) of this section and a license suspended under subsection (c) of this section may
only be reinstated pursuant to paragraph (c)(5) of
this section or after a hearing before the Standards Board.
(p) In any hearing before the Standards Board to
challenge action taken under this section, the Standards Board shall have the power to administer oaths,
order the taking of depositions, issue subpoenas, and
compel attendance of witnesses and the production of
books, accounts, papers, records, documents, and testimony.
(q) Notice of the limitation, revocation, suspension or
reinstatement of a license shall be made by the Secretary, or the Secretary’s designee, to all chief state
school officers of the other states and territories of the
United States.
(r) All communications between a license holder and
the Department or Standards Board provided for in
this section shall be by certified mail, with a return receipt requested.

App. 100
(s) For the purpose of this section only, the term “license” shall include a Standard or Professional Status
Certificate issued by the Department prior to August
31, 2003, an initial license issued pursuant to § 1210 of
this title, a continuing license issued pursuant to
§ 1211 of this title, or an advanced license issued pursuant to § 1213 of this title.

TITLE 18
Insurance Code
Insurance
CHAPTER 65. Insurance for
the Protection of the State
Subchapter I. General Provisions
*

*

*

§ 6503 Forms of coverage.
The Committee shall:
(1) Protect this State from loss to state-owned
property;
(2) Protect the public from wrongful actions of
state officials and employees and failure or malfunction of state-owned property;
(3) Secure for this State the maximum economic
advantage feasible in the operation of its insurance coverage program, including, when deemed
appropriate to such end, the utilization of blanket

App. 101
policies, deductible or excess loss insurance, and
self-insurance;
(4) Determine such insurance protection as shall
be required by the needs of the State and as shall
be most economically advantageous to the State
by providing for, as they shall deem appropriate,
no insurance on small losses, coverage by commercial insurance, coverage by self-insurance or a
combination of such methods.
*

*

*

§ 6508 Duties of the Insurance Coverage Office.
The Insurance Coverage Office shall provide:
(1) The placement of all insurance with commercial insurers as directed by the Committee;
(2) The operation of the Self-Insurance Fund, as
established in subchapter III of this chapter;
(3) Centralized responsibility for the operation of
the state insurance coverage program vested in a
single agency with an adequate staff of legal, actuarial and administrative resources;
(4) The establishment and operation of an open
bid procedure to be maintained for purchasing
new insurance coverage from commercial insurers
and renewing existing contracts with such commercial insurers which will permit the free forces
of market competition to operate to the benefit of
the state insurance coverage program;
(5) The keeping of all policies with commercial
insurers and all records necessary and pertinent
thereto in some safe and secure place;

App. 102
(6) The keeping in some safe and secure place
of all records, accounts, claims files, statistical
studies and other such records and documents
necessary and proper in the administration of the
self-insurance program, when and if the Committee deems it proper to utilize same;
(7) The periodic preparation of reports as to the
commercially procured insurance coverage part
of the program which shall present the basic
statistical-actuarial data pertaining to the experience of that part of the program and its component
parts, which reports shall be public documents;
(8) Provide to the commercial insurance industry
such information about bidding procedures as is
required by the statutes of this State, so that any
qualified commercial insurer may have an opportunity to offer its service to this State in the areas
where the Committee has deemed it desirable to
procure commercial coverage;
(9) Periodic comprehensive insurance surveys of
program needs, and a continuing review of existing commercially procured insurance contracts, as
well as analysis of commercial rates in terms of
changing economic conditions, and periodic studies of commercial market conditions and developments;
(10) Such special investigations and reports as
may be requested by the Committee Chair;
(11) Technical assistance to the volunteer fire departments in the State concerning insurance matters relating to their operations. Such assistance

App. 103
shall be given only at the request of the president
of a company; and
(12) The implementation and monitoring of loss
prevention activities.
*

*

*

§ 6511 Defense of sovereignty prohibited.
The defense of sovereignty is waived and cannot and
will not be asserted as to any risk or loss covered by
the state insurance coverage program, whether same
be covered by commercially procured insurance or by
self-insurance, and every commercially procured insurance contract shall contain a provision to this effect,
where appropriate.

App. 104
DELAWARE CONSTITUTION
ARTICLE XIV. OATH OF OFFICE
§ 1. Form of oath for members of General Assembly and public officers.
Members of the General Assembly and all public officers executive and judicial, except such inferior officers
as shall be by law exempted, shall, before they enter
upon the duties of their respective offices, take and
subscribe the following oath or affirmation:
“I, (name), do proudly swear (or affirm) to carry out the
responsibilities of the office of (name of office) to the
best of my ability, freely acknowledging that the powers of this office flow from the people I am privileged to
represent. I further swear (or affirm) always to place
the public interests above any special or personal interests, and to respect the right of future generations
to share the rich historic and natural heritage of Delaware. In doing so I will always uphold and defend the
Constitutions of my Country and my State, so help me
God.”
No other oath, declaration or test shall be required as
a qualification for any office of public trust.

App. 105
RULES OF CIVIL PROCEDURE
FOR THE SUPERIOR COURT
OF THE STATE OF DELAWARE
Rule 15. Amended and supplemental pleadings.
(a) Amendments. – A party may amend the
party’s pleading once as a matter of course at any time
before a responsive pleading is served or, if the pleading is one to which no responsive pleading is permitted
and the action has not been placed upon the trial calendar, the party may so amend it at any time within
20 days after it is served. Otherwise, a party may
amend the party’s pleading only by leave of court or by
written consent of the adverse party; and leave shall
be freely given when justice so requires. A party shall
plead in response to an amended pleading within the
time remaining for response to the original pleading or
within 10 days after service of the amended pleading,
whichever period may be the longer, unless the Court
otherwise orders.
(aa) Form of amendments. – A party serving an
amended pleading shall indicate plainly in the amended
pleading in what respect the amendment differs from
the pleading which it amends.
(b) Amendments to conform to the evidence. –
When issues not raised by the pleadings are tried by
express or implied consent of the parties, they shall be
treated in all respects as if they had been raised in the
pleadings. Such amendment of the pleadings as may
be necessary to cause them to conform to the evidence
and to raise these issues may be made upon motion of

App. 106
any party at any time, even after judgment; but failure
so to amend does not affect the result of the trial of
these issues. If evidence is objected to at the trial on
the ground that it is not within the issues made by the
pleadings, the Court may allow the pleadings to be
amended and shall do so freely when the presentation
of the merits of the action will be subserved thereby
and the objecting party fails to satisfy the Court that
the admission of such evidence would prejudice the
party in maintaining the party’s action or defense upon
the merits. The Court may grant a continuance to enable the objecting party to meet such evidence.
(c) Relation back of amendments. – An amendment of a pleading relates back to the date of the original pleading when
(1) relation back is permitted by the law that
provides the statute of limitations applicable to the action, or
(2) the claim or defense asserted in the
amended pleading arose out of the conduct, transaction, or occurrence set forth or attempted to be set forth
in the original pleading, or
(3) the amendment changes the party or the
naming of the party against whom a claim is asserted
if the foregoing provision (2) is satisfied and, within the
period provided by statute or these Rules for service of
the summons and complaint, the party to be brought
in by amendment (A) has received such notice of the
institution of the action that the party will not be prejudiced in maintaining a defense on the merits, and (B)

App. 107
knew or should have known that, but for a mistake
concerning the identity of the proper party, the action
would have been brought against the party.
(d) Supplemental pleadings. – Upon motion of a
party the Court may, upon reasonable notice and upon
such terms as are just, permit the party to serve a supplemental pleading setting forth transactions or occurrences or events which have happened since the date
of the pleading sought to be supplemented. Permission
may be granted even though the original pleading is
defective in its statement of a claim for relief or defense. If the Court deems it advisable that the adverse
party plead to the supplemental pleading, it shall so
order, specifying the time therefor.

App. 108
Page:
Report Date:
Agency:
Complaint:
1
02/18/2009
TROOP 2 STATE POLICE
xxxxxxxxxxxx
Reported Date and Time
Initial Crime Report
Occurred:
WED 02/18/2009 1125
TUE 01/27/2009 1230 thru TUE 01/27/2009 1345
Location:
2501 Ebright Concord High School
Wilmington, DE 19810
CLASSROOM / ROOM AA 208
M. O. and Incident Overview:
Suspect Clouser is currently being investigated by Brandywine School District for improper use of a school computer (possible child
porn site). Computer has been seized and placed into Troop 2 Evidence for High Tech Crimes Unit.
Grid
Sector
County
Domestic Related
Gen Broadcast Sent?
Gang Related?
Gun Related?
114-380
12
New Castle
⬜ Yes ☒ No
⬜ Yes ☒ No
⬜ Yes ☒ No
⬜ Yes ☒ No
Related School Name
Concord High School
Victim Information
Victim Number
Name
001
Type
Sex
Race
Ethnic Origin
Age
D.O.B.
Society/Public
Address
Resident Status
Home Telephone
Cell Phone
Reporting Person?
⬜ Yes ☒ No
Injuries

Victim Injured?
⬜ Yes ☒ No

Victim Deceased?
Officer Comments
⬜ Yes ☒ No
Description of Injuries
Suspect/Defendant Information

Sequence
Type
001
Suspect
Name
CLOUSER, JEFFREY
Sex
Race
Male
White
Hair
Hair Length
Brown
Short
Disguises

SSI Number
Nick Name
Ethnic Origin
Age
D.O.B.
Height
Weight
Skin Tone
Eye Color
Not Hispanic/Latino
40
04/20/1968 5’ 11”
175
Blue
Hair Style
Facial Hair
Voice Speech
Teeth
Build
Glasses
Straight
Average
Disguise Color(s)
Resident Status
Unusual Characteristics
Armed With
Full Time
Unarmed

App. 109
Address
404 Concord AVE
WILMINGTON, DE 19803
Arrest Number
Employer/School
COCORD HIGH SCHOOL
2501 EBRIGHT RD
WILMINGTON, DE 19810
Victim Number
001
Location of Offense
School/College
Suspected Hate/Bias
⬜ Yes ☒ No - N/A

Home Telephone
(302) 475-3951

Cell Phone

Suspect’s Clothing Description
Work Telephone
(302) 475-3951

Crimes and Associated Information
Crim Seq.
Statute
Crime Description
001
Miscellaneous Investigation, Industrial Accident, Lost Property
Status
Involvement
General Offense
Service Clear 02/23/2009
⬜ Alcohol ⬜ Drugs ⬜ Computer
Crime Code
xxxxxxxxxxxxxxxxxxxxx
Victim – Suspect/Defendant Relationships

Victim – 001
Society/Public
Suspect/Defendant – 001
CLOUSER, JEFFREY

Victim Offender Relationship
Victimless Crime
Witness Information

Sequence
Type
Name
001
Reporting Person
xxxxxxxxxxxxxxxxxxxxxxxx
Address
Home Telephone
xxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxx
Employer/School
Work Telephone
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

Sex
xxxxx
Cell Phone

Race
Age
xxxxxxxx

D.O.B.

App. 110
Investigative Narrative
On 02/18/09 I was contacted by xxxxxxxxxx in reference to the facts of the case. xxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxx, stated that they are investigating a Concord High School teacher from improper
use of a school computer. xxxxxxxxxx, RP, stated that
they were alerted by their “IT guys” that suspect Jeffrey Clouser used his log on password several times to
access “child porn”. RP advised that they are scheduling a meeting for 2/19/09 at 0900 hrs and that xxxx
would provide more information.
After receiving this report from RP xxxx I immediately
notified both my supervisor, SGT Bordley and High
Tech crimes unit. I was advised to secure the computer
from Concord High School and take said evidence to
Troop Two’s evidence locker.
I then responded to Concord High School and picked
up said computer from xxxxxxxxxxxxx xxxxxxxxxxxxx
xxxxxxxxxxxxxx). xxxxxxxxxxxxx had the computer
secured (locked with key) inside of xxxx wall locker.
The computer was disconnected by Concord’s
xxxxxxxxxxxxxxxxxxxxx xxxxx xxxxxxxxxxxx stated
that he removed the power cable, keyboard cable,
mouse cable and then the network cord. xxxxxxxxxxxx
stated that he then walked the computer (hard drive)
to xxxxx xxxxxxxxxxxx office.
On 02/19/09 I will be responding to RP xxxxxxx’s office
for further information. RP xxxxxxx advised that suspect Clouser has resigned from his teaching position
and that no further district action will be taken.

App. 111
On 02/23/09 I was advised by Sgt Bordley that High
Tech crimes did not find any “porn” on suspects computer and that there would be no criminal charges
made.
Case has been cleared as “service clear”. Nothing follows.
Statement of Witness 001 – xxxxxxx
See narrative for statement.
Reporting Officer
Supervisor Approval
CPL FLOWERS - 1304 ROBERT F STEVENS
PSPT828
Date 03/04/2009 0835
Detective Notified
Referred To
Solvability Factors
Status
⬜ Witness ⬜ M. O. ⬜ Trace Stolen Property Closed
⬜ Suspect Named
⬜ Suspect Located
⬜ Suspect Described ⬜ Suspect Identified
⬜ Suspect Vehicle
Identified

App. 112
Page: Report Date:
1

04/16/2009

Agency:

Complaint:

DSP HEADQUARTERS xxxxx

Supplemental Report
Original Occurrence. Dates and Times: TUE 01/27/2009
1230 thru TUE 01/27/2009 1345 Grid 114-380
Sector 12
Original Location: 2501 Ebright Concord High
School Wilmington, DE 19810
CLASSROOM / ROOM AA 208
Investigative Narrative
Writer was requested by Cpl Flowers to examine the
two seized computers for this investigation. All computers were seized and turned over to Writer by Cpl
Flowers, refer to Cpl Flowers report for a detail description of the computers. The case involves a teacher
of the school who was using the school internet and the
search engine Google to search terms that had been filtered by the school as inappropriate. The second computer was seized due to the fact the owner is an
administrator at the school and had used her personal
computer to access the information the suspect was attempting to access. All computers were examined
xxxxxxxxxxx and following all standard operating/
acquisition procedures.
The first computer examined was a HP Compaq
desktop computer. After examining the computer it
was determined there were no illegal images. The
second computer that was examined was a Gateway

App. 113
laptop computer. After examining the computer it was
determined there were no illegal images.
The computers have been returned to Cpl Flowers
for his investigation. No further action is required of
Writer at this time.
Supervisor Approval
KEVIN A PERNA
PSPT846
Date 05/05/2009 0733
Solvability Factors
Status
⬜ Witness ⬜ M. O. ⬜ Trace Stolen Property
⬜ Suspect Named
⬜ Suspect Located
⬜ Suspect Described ⬜ Suspect Identified
⬜ Suspect Vehicle
Identified
Reporting Officer
DET SPILLAN 6492 001

App. 114
Articles
PROMISING THE CONSTITUTION
Richard M. Re
*

*

*

[p. 308] Those informal methods of instilling promissory obligation operate in the real world as well, but
they do so in tandem with a formal oath that affords
officials an efficient and familiar means of achieving
the same moral objective—that is, of assuring the public through personal commitment. The formal oath also
fosters and entrenches the informal practices and public expectations that can help create officials’ promissory obligations. As a result, the public can assume
that officials promise adherence to the Constitution,
even when their formal oaths are unpublicized or postponed for emergencies.” For these reasons, “the oath” is
best understood to encompass both formal and informal sources of officials’ promissory obligations.
*

*

*

[p. 313] Officials take the oath under conditions that
permit the creation of moral obligation. No hand—either
dead or alive—forces individuals to run for office, take
the oath, or lead others to think that they will take “the
Constitution” seriously. And because officials in the
United States take the oath with democratic approval,
action in compliance with the oath is itself imbued
with democratic legitimacy.
*

*

*

